<html>
<title> - NATIONAL PARK OVERFLIGHTS</title>
<body><pre>[Senate Hearing 107-1123]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1123
 
                       NATIONAL PARK OVERFLIGHTS

=======================================================================





                                HEARING

                               BEFORE the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 3, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation












                 U.S. GOVERNMENT PRINTING OFFICE

94-501                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail 
Stop SSOP, Washington, DC 20402-0001













       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held October 3, 2002.....................................     1
Statement of Senator Ensign......................................    17
Statement of Senator McCain......................................     1

                               Witnesses

Bosak, Steven, Associate Director of Visitor Experience Programs, 
  National Parks Conservation Association........................    30
    Prepared statement...........................................    31
Gilligan, Margaret, Deputy Associate Administrator for 
  Regulations and Certification, Federal Aviation Administration.     8
    Prepared statement...........................................     9
Hoffman, Paul, Deputy Assistant Secretary for Fish and Wildlife 
  and Parks, Department of the Interior..........................     5
    Prepared statement...........................................     6
Reid, Hon. Harry, U.S. Senator from Nevada.......................     3
Robinson, Tom, Director of Government Affairs, Grand Canyon Trust    26
    Prepared statement...........................................    28
Stephens, Alan R., Vice President, Grand Canyon Airlines, CEO, 
  Twin Otter International, on behalf of United States Air Tour 
  Association....................................................    21
    Prepared statement...........................................    23

                                Appendix

Bosak, Steven, Associate Director of Visitor Experience Programs, 
  National Parks Conservation Association, letter dated October 
  13, 2002, to Hon. John McCain..................................    43
McClelland, Riley, Wildlife Biologist, National Park Service 
  (Retired), prepared statement..................................    45
Response to written questions submitted by Hon. John McCain to:
    Steven Bosak.................................................    50
    Margaret Gilligan............................................    46
    Alan R. Stephens.............................................    49
Schneebeck, Carl A., Program Associate, Jackson Hole Conservation 
  Alliance, prepared statement...................................    44
Sieck, Hope, Associate Program Director, Greater Yellowstone 
  Coalition, letter dated October 2, 2002, to Hon. John D. 
  Rockefeller IV.................................................    44














                       NATIONAL PARK OVERFLIGHTS

                              ----------                              


                       THURSDAY, OCTOBER 3, 2002

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Good morning. 15 years ago, Congress passed 
the National Parks Overflight Act of 1987. This act, among 
other things, took steps to protect one of the crown jewels in 
our national park system, the Grand Canyon. The bill was 
cosponsored in the House by my friend Mo Udall, a strong 
protector of the pristine beauty of the Grand Canyon and our 
other national parks.
    In that law, Congress prescribed that within 30 days of 
enactment the Secretary of the Interior shall submit to the 
Administrator of the Federal Aviation Administration 
recommendations regarding actions necessary for the protection 
of resources in the Grand Canyon from adverse impacts 
associated with aircraft overflights.
    The recommendations were to provide for substantial 
restoration of the natural quiet and experience of the park, 
and protection of public health and safety from adverse effects 
associated with aircraft overflights. 90 days after reporting, 
the FAA Administrator was to prepare and issue a final plan for 
the management of air traffic in the air space above the Grand 
Canyon to implement the recommendations. Congress prescribed a 
120-day period to get this done. Within 2 years, the Park 
Service was to have submitted a report to Congress discussing 
whether the plan succeeded.
    Some might have argued that this time table was too short, 
but I do not believe that anyone--anyone--believed that the 
goal of the law would not be met 15 years later. Instead of 
fulfilling the mandated 120-day time frame, it took 1 year for 
the plan to be developed. The plan was not implemented until 
September 1988, and then the report that was to have been 
submitted by the National Park Service by 1990 was not 
submitted until 1994, 4 years after its due date. The FAA then 
responded to the report with a final rule in 1996. The rule 
committed to meeting the substantial restoration of natural 
quiet by 2008, 21 years after the passage of the law.
    It seems to me, given the past history on this issue, that 
that date also may be in jeopardy. Subsequent rules issued by 
the FAA in 2000 were challenged by the air tour operators and 
environmental groups, and a court decision was recently issued 
requiring the FAA to revise its rules further.
    Congress passed the National Parks and Air Tour Management 
Act 2\1/2\ years ago to help regulate air tours over the rest 
of the National Park System. In it, we required the FAA to 
designate reasonably achievable requirements for the use of 
quiet aircraft technology within the Grand Canyon within 1 year 
of passage. If the FAA could not meet that deadline, it was to 
notify us of the fact within 1 year. The FAA did not meet the 
deadline. It told us last October that the rule would be out at 
the beginning of 2002. We are now late in the year, and there 
is still no sight of a quiet technology rule, yet quiet 
technology could go a long way toward reaching a solution to 
this issue. It at least deserves strong consideration.
    It seems that everyone can take the credit or blame for the 
delay in this issue. Everyone has pointed fingers at everyone 
else. Inaction, court challenges and lack of attention have all 
led us to where we are now. I am not particularly concerned 
about who is responsible. What I do care about is that we have 
not reached our goal 15 years after we established this as law. 
Deadlines have been set and consistently not been met. What I 
want to know is when and how we will reach the final 
resolution.
    The sponsors of the National Parks Overflight Act and the 
National Parks Air Tour Management Act believe that we could 
have a strong air tour industry and also protect the natural 
resources of our national parks. We believe that a fulfilling 
and enjoyable experience at the Grand Canyon and our other 
national parks is possible for all park visitors, whether they 
visit by foot or by air.
    Our witnesses today represent the major stakeholders in 
this issue. I believe that everyone involved wants to put this 
issue to rest. The air tour operators are looking for 
consistency and some guidance about quiet technology, the 
environmental groups would like some finality about protection 
of the parks, and I am sure the FAA and the National Park 
Service would like to devote their resources to other areas. 
All of the stakeholders must work together to reach the goals 
set out in the law. I look forward to hearing from the 
witnesses to learn how and when this seemingly never-ending 
process might come to an end.
    This is also the last hearing that our dear employee, Mike 
Reynolds, will be with us. Mike, we wish you every success as 
you move over to work in the administration, and hopefully when 
you are over there you can goad them into some action on this 
issue as well as others, and we thank you for your years of 
service to this Committee.
    We now have my friend and colleague from Nevada, Senator 
Harry Reid, who is with us today, and before I recognize 
Senator Reid I just want to comment again, in 1987 I never 
believed 15 years later that we would be sitting here still 
without this issue having been resolved, and again, I do not 
want to point fingers at people because I am not sure that is 
productive, but if we do not at least review to some degree why 
we have not acted, then I am not sure we would have a way of 
curing the problem that exists. And again I want to say to all 
my friends who are involved in this issue, quiet technology is 
one of the factors that should be considered, not the only 
factor, but quiet technology is something that seems to me to 
have been somewhat ignored, particularly when it was explicitly 
written in the law.
    Senator Reid, welcome.

                 STATEMENT OF HON. HARRY REID, 
                    U.S. SENATOR FROM NEVADA

    Senator Reid. Thank you, Mr. Chairman. We in Nevada 
consider Grand Canyon part ours. We really consider this gem of 
nature something very special, and one of the most thoughtful, 
enjoyable times of my life was to float that with my sons. It 
is a time I will never forget, and Mr. Chairman, you should 
understand that no one--and I should not say that. I certainly 
do not question the reasons for your moving forward on this.
    I think what you did was far-sighted and, as you have 
indicated, who in the world would expect that now, 15 years or 
more later, nothing has been resolved, so I am here today to 
testify because I am concerned that the Federal Aviation 
Administration has failed to develop the incentives for quiet 
technology aircraft. The statutory deadline, as you indicated, 
is long since passed.
    Senator Ensign and I are very concerned. We have introduced 
legislation and, Mr. Chairman, the legislation is only a 
message to everyone, we all know that, and that is why I so 
much appreciate this oversight hearing to see what we can do to 
get some finality to this. We need to designate reasonably 
achievable requirements for fixed wing and helicopter aircraft 
for such aircraft to be considered quiet aircraft technology 
and, second, to establish corridors for commercial air tour 
operations by fixed wing and helicopter aircraft that employ 
quiet aircraft technology or explain to Congress why this 
cannot happen. The agency has failed to comply with these 
provisions, and I have to say, Mr. Chairman, it is equal 
opportunity failure. You cannot blame it on a Republican 
administration or a Democratic administration. They have all 
failed, and it should not be that difficult.
    The act also provides operators employing quiet technology 
shall be exempted from operational flight caps. This is 
essential to the very survival of many of these air tour 
operators. By not complying with these congressional mandates, 
the FAA places viability of the Grand Canyon air tour industry 
in jeopardy and, Mr. Chairman, that industry is very important 
to Nevada and to Arizona. It is part of the commercial 
enterprises that both States enjoy.
    Senator Ensign and I have sought to work out with the 
Federal agencies something that, we would try to do it in a 
cooperative manner, but frankly our repeated overtures have 
been summarily ignored by the FAA and, I am sorry to say, the 
National Park Service. We have met with them, we have cajoled, 
we have begged, and it has not done any good, I am sorry to 
say. It has to come from this Committee. This is the Committee 
of jurisdiction. We need the FAA and the National Park Service 
to work together to identify reasonably achievable quiet 
technology standards and provide relief for air tour operators 
who have spent many years and millions and millions of dollars 
to voluntarily transition to quieter aircraft to help restore 
quiet to the Grand Canyon.
    The National Park Air Tour Management Act is what we have 
introduced. It calls for implementation of reasonably 
achievable quiet technology incentives, but Mr. Chairman, that 
comes through this Committee and, in my view, I would hope that 
we would not have to worry about getting that out of this 
Committee. I would hope that they would arrive at something 
without new legislation. The original intent, as you have 
indicated, was to help restore natural quiet to Grand Canyon, 
and as the 1916 Organic Act directs, to provide enjoyment of 
our national parks, quote, ``in such manner and by such means 
as will leave them unimpaired for the enjoyment of future 
generations.''
    There is broad support for ensuring the survival of Grand 
Canyon air tour industry, recognizing air touring is consistent 
with the Park Service mission. Based on current air tour 
restrictions, more than 1.7 million, almost 2 million tourists 
will be denied access to Grand Canyon during the next decade, 
at a cost to Arizona and Nevada operators of $\1/4\ billion, 
and since the September 11 attacks, air tour operators are 
still experiencing substantial economic losses. The first 
quarter following September 11 the air tour industry 
experienced up to a 70 percent decline in passengers. The 
unavoidable ground stops while waiting for passengers alone 
cost these companies about $1\1/2\ million in lost revenue. The 
documented losses through this first quarter of 2002 exceeded 
$20 million.
    The tour industry is vital, as I have indicated. I would 
hope, Mr. Chairman, that I--first of all, I want to repeat--I 
should not say first of all, but again I want to repeat my 
appreciation for your holding this hearing, and I hope that the 
two important objectives are completed, No. 1 to preserve the 
natural quiet of the Grand Canyon, and No. 2, ensure the 
viability of those air tour operators who have invested, as I 
have indicated, millions and millions of dollars of their own 
money to transition their fleet to quieter aircraft.
    Thank you, Mr. Chairman.
    Senator McCain. Thank you very much, Senator Reid, and I 
want to thank you and Senator Ensign both for your involvement 
in this issue, and I believe that if we continue focusing our 
attention on this issue we can perhaps get some kind of 
resolution to it, but I believe that hearings like this are 
necessary and I do know that a lot of people who come and visit 
your State take advantage of the opportunities to come and 
visit the Grand Canyon, both from the air and on the ground, 
and I know that it does have an impact not only on the economy 
of your State but also on the ability to provide this unique 
Grand Canyon experience to many hundreds of thousands of 
Americans and foreign visitors. And I thank you for your 
commitment and involvement on this issue.
    Senator Reid. Mr. Chairman, let me just say one thing. 
Senator Ensign was expected to be here. He is testifying in 
another hearing, and if he does not come it is not because he 
is not interested.
    Senator McCain. Thank you very much, Senator Reid. We 
appreciate your taking the time.
    Our first witnesses will be Mr. Paul Hoffman, Deputy 
Assistant Secretary for Fish and Wildlife and Parks, and Ms. 
Margaret Gilligan of the Federal Aviation Administration.
    We will have two panels. We will have first Mr. Hoffman and 
Ms. Gilligan, and then we will have Mr. Stephens, Mr. Robinson, 
and Mr. Bosak.
    Welcome. It is the practice of this Committee to have 
administration witnesses first and then others in separate 
panels, and so we will continue that practice.
    Welcome, Mr. Hoffman or Ms. Gilligan. Whoever wants to 
speak first, please proceed.

          STATEMENT OF PAUL HOFFMAN, DEPUTY ASSISTANT 
          SECRETARY FOR FISH AND WILDLIFE AND PARKS, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Hoffman. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today to testify on behalf of the 
Department of the Interior regarding the implementation of the 
provisions of several laws regarding park overflights at the 
Grand Canyon National Park. I have submitted written testimony, 
which I would like to have entered for the record.
    Senator McCain. Without objection.
    Mr. Hoffman. I will spare you my rather brief summary of 
the legislative history, which you know all too well, sir, and 
go right to some of the challenges we face, and you have 
articulated some of them already. The goal here is to 
substantially restore quiet to the Grand Canyon while retaining 
the opportunity for a significant population of park visitors 
to enjoy the park via air tours. That goal contains many 
substantial challenges, including the definition of substantial 
quiet, as well as the definition of what a viable air tour 
industry is and how much opportunity we expect to end up with.
    Congress recognized the appropriate yet different roles 
that the NPS and the Federal Aviation Administration have in 
regulating park overflights. Nonetheless, this is probably one 
of the rare times where these two agencies have had to work 
together. We have rather distinct missions. We certainly have 
different corporate cultures, if you will, and there are 
overarching effects of restoring quiet that bring to bear 
impacts on civilian operations of airports and/or military 
preparedness and training exercises that we need to be 
considerate of as we go forward.
    Probably one of the most significant challenges has been 
the evolution of this new science of what exactly is natural 
quiet. There have been several definitions that the Park 
Service has put together over the years, and as they continue 
to expand their science and analysis of this issue, those 
definitions have changed.
    There have been unsettled standards for measuring 
substantially quiet. We started out with the noticeability 
standard, which is when an aircraft sound could be noticed, 
ambient plus 3 decibels, it was called. Then the Park Service 
determined to actually divide the park into zones, with zone 1 
applying the noticeability standard, and zone 2, the back 
country area, applying a more strict aircraft detectable 
standard, which is known by some as the ambient minus 8 
decibels standard.
    There have been at least three different models tested for 
measuring aircraft noise in the Grand Canyon area. Those models 
have been ground tested, which requires substantial time. It 
requires putting people out in the park, logging data and 
logging sounds over time, so that we can best know which model 
appropriately measures those sounds.
    There has been debate over whether we should measure the 
sound over average day or peak day. There has been debate over 
what the length of the day is over which we wanted to define 
substantial quiet. There has been debate over commercial 
aircraft noise and their impact on substantial quiet in the 
park, and there is debate over which noise level assumptions 
you plug into those models. Currently, they use noise levels 
that are defined as, under takeoff with a full load, which is 
probably more noise than occurs when the planes are cruising 
over the park during a tour.
    Certainly there remain unsettled legal issues that present 
challenges to us all. These are a complex set of challenges 
that can lead otherwise reasonable people to disagree, and we 
have had a lot of disagreement in the park. The good news is 
that under the Bush Administration the Department of the 
Interior and Department of Transportation are committed to 
working together to resolve this nagging and complex issue.
    I am kind of a new kid on the block. I just started 6 
months ago. I have got this fresh naivete and this reckless 
optimism, and I am committing my time and resources to help try 
and resolve this issue personally. For better or for worse, 
depending upon which side you are on, of course, the courts 
have clarified some of the issues that I have raised here 
today, and with those guidances in place, that should help us 
get over some of the impending hurdles.
    Lastly, I would like to interject a possibility for 
everybody to consider. I have visited with many of the players 
in the Grand Canyon overflight issue, you being the exception, 
sir, and discussed the idea of the possibility of exploring 
using an alternative dispute resolution process to help us all 
get to yes on this. And the purpose behind this would be not to 
delay the process at all, but to hopefully get us all together 
sitting around a table, work through these things, and try and 
stay out of the courtrooms, which seem to bring huge delays in 
terms of time.
    Thank you for the opportunity to testify, sir, and I would 
be happy to answer any questions you may have.
    [The prepared statement of Mr. Hoffman follows:]

Prepared Statement of Paul Hoffman, Deputy Assistant Secretary for Fish 
           and Wildlife and Parks, Department of the Interior
    I wish to thank the Committee for the opportunity to appear today 
to discuss the implementation of public laws regarding overflights of 
national parks. Since 1975 Congress has addressed the issue of aircraft 
overflights of national parks three times, with particular emphasis on 
Grand Canyon National Park. I would like to summarize for the Committee 
the Department's progress on implementing these laws both at Grand 
Canyon National Park and across the entire National Park System.
    Passed in January, 1975, Public Law 93-620, ``The Grand Canyon 
National Park Enlargement Act'', requires the Secretary to determine 
whether aircraft overflights are likely to pose a threat to visitor 
safety and whether there is a ``significant adverse effect to natural 
quiet and experience of the park.'' If such threats are found, the 
Secretary has a responsibility to make recommendations to the Federal 
Aviation Administration (FAA) for any rules, regulations, or any other 
appropriate actions to mitigate these impacts. In accordance with 
Public Law 93-620, acoustic and sociological studies were completed and 
a public planning process was progressing. However, the studies and 
process were truncated by a mid-air collision between two air tour 
aircraft in 1986 and Pub.L. 100-91, the National Parks Overflights Act 
of 1987, was passed the following year.
    Section 3 of Public Law 100-91 specifically addressed the 
restoration of natural quiet at Grand Canyon National Park. Under this 
law, the Secretary is directed to submit recommendations to the 
Administrator of the FAA regarding ``actions necessary for the 
protection of resources in the Grand Canyon from adverse impacts 
associated with aircraft overflights.'' The Act requires the FAA to 
implement the recommendations of the Secretary without change unless 
the Administrator determines that implementing the regulation adversely 
affects aviation safety. The Department forwarded recommendations to 
the FAA in December, 1987, which became part of Special Federal 
Aviation Regulation 50-2 (SFAR 50-2). The regulation, which became 
effective in September, 1988, established fixed routes, altitudes for 
air tours, and flight-free zones.
    Public Law 100-91 also required the National Park Service (NPS) to 
submit a report to Congress on whether the FAA's SFAR 50-2 ``has 
succeeded in substantially restoring the natural quiet in the park,'' 
and to suggest revisions to the regulation. The National Park Service 
conducted extensive acoustical and sociological research between 1989 
and 1993 to meet this requirement. The NPS submitted a Report on 
Effects on Aircraft Overflights on the National Park Service to 
Congress on September 12, 1994. The report to Congress recommended many 
revisions to SFAR 50-2 to substantially restore natural quiet at Grand 
Canyon National Park.
    FAA Final Rules (1996) established reporting requirements, changed 
airspace restrictions and routes for air tours, capped the number of 
aircraft authorized for air tours at Grand Canyon, and set curfews for 
air tours in the eastern Canyon. Some of the airspace and route changes 
were implemented, while others were deferred in order to permit further 
discussions with DOI on proposed new routes and further consultation 
with Indian tribes bordering the Park. The 1996 Final Rule has been the 
subject of several legal challenges that were unsuccessful.
    Title VIII of Pub.L. 106-181, the National Parks Air Tour 
Management Act, addresses the management of aircraft overflights for 
the entire National Park System. Specific provisions for Grand Canyon 
National Park affirm the requirement to achieve substantial restoration 
of natural quiet. In addition, it requires a definition of ``quiet 
aircraft technology'' and the creation of quiet aircraft technology 
incentive routes, provided these routes would not negatively impact 
substantial restoration of natural quiet, Native American lands, or 
safety.
    Litigation on the two FAA Final Rules issued in 2000 was filed by 
the U.S. Air Tour Association (USATA) and an environmental coalition 
led by the Grand Canyon Trust. The USATA sought to have the flight caps 
rule set aside largely for procedural reasons. The environmental 
coalition asked the court to order the FAA to follow the wording of 
Pub.L. 100-91, and use the annual peak day, rather than average annual 
day, in modeling the achievement of substantial restoration of quiet. 
Use of annual peak day levels sets a higher standard, which means that 
summer visitors, and visitors on any day, will experience substantial 
restoration of natural quiet.
    In August, 2002, the U.S. Court of Appeals issued a decision 
regarding the suit filed by the USATA which had two significant 
outcomes. The court held that the use of an annual average day for 
measuring ``substantial restoration of the natural quiet'' appears 
inconsistent and remanded the issue to the agencies for further 
consideration and clarification. Second, the court concluded that 
exclusion of non-tour aircraft from the noise-model was arbitrary and 
capricious and must also be reconsidered by the agencies.
    The courts ruled in favor of the NPS as the appropriate agency to 
set the goal for substantial restoration of quiet. The NPS has 
determined that having 50 percent of the park quiet for 75 percent of 
the time would meet the goal of having substantial restoration of quiet 
in the Grand Canyon National Park. Various factors impact the 
attainment of this goal, including the choice of acoustic model, 
whether average day or peak day measurements are used, and which sound 
data are used for modeling aircraft noise. The NPS is currently 
reviewing the impacts of these factors.
    The FAA and NPS are jointly funding a computer model validation 
study at Grand Canyon National Park. The study compares modeling 
results with field acoustic observations to determine the degrees of 
accuracy and precision that existing computer models provide. The study 
compares models developed by the FAA, NPS, and the U.S. Air Force and 
National Aeronautical and Space Administration. A Technical Review 
Committee (TRC), a panel of internationally recognized experts in 
acoustics and experimental research design, has provided their 
technical expertise to validate the research methodology and review 
study results. It is expected that the revised report will be available 
to the public in the fall of 2002.
    Regarding the nationwide implementation of the National Parks Air 
Tour Management Act of 2000 (Pub.L. 106-181), we continue to work 
closely with the Federal Aviation Administration in many ways to 
implement the Air Tour Management Plan provisions that would establish 
a requirement of an air tour management plan for all commercial air 
tour operations over national parks to mitigate or prevent any 
significant adverse effects on natural and cultural resources, park 
visitors or affected tribal lands.
    The FAA has been working through the process of developing 
regulations to implement provisions of the National Parks Air Tour 
Management Act with some delay resulting from the change in 
Administration. Consistent with the Administration's objective in 
encouraging interagency collaboration in these matters, the Department 
of the Interior is working with the Department of Transportation to 
establish cooperative procedures for the preparation of the Air Tour 
Management Plans. With respect to Grand Canyon National Park, use of an 
Alternative Dispute Resolution process is currently under consideration 
as a vehicle for reaching collaborative agreement on the best way to 
restore natural quiet and to retain the opportunity for the public to 
enjoy the park via air tours.
    Thank you, Mr. Chairman, for this opportunity to testify and we 
would be most happy to answer any questions the Committee may have for 
us.

    Senator McCain. Thank you. Ms. Gilligan.

STATEMENT OF MARGARET GILLIGAN, DEPUTY ASSOCIATE ADMINISTRATOR 
      FOR REGULATIONS AND CERTIFICATION, FEDERAL AVIATION 
                         ADMINISTRATION

    Ms. Gilligan. Thank you, Mr. Chairman, Senator McCain. I am 
Margaret Gilligan, Deputy Associate Administrator for 
Regulation and Certification at FAA, and I am pleased to be 
here today to discuss with you our efforts at the Grand Canyon. 
We have submitted written testimony for the record as well.
    Sir, I wish that I were here to report to you success, to 
say that we have restored natural quiet to the Grand Canyon. I 
know the Department of the Interior wishes that. I know the 
panelists who will be on your next panel wish the same, but as 
you know, we are not yet in a position to claim success. 
Accomplishing the goal that was set by this legislation has 
been more difficult, more complicated, and involved more people 
than we had ever expected.
    Having said that, I do think we need to point out we have 
had some real accomplishments. The park is quieter now than 
when we started. There are no tours at night. There are no 
tours in expanded flight-free zones over the park. There has 
not been an increase in the number of tours since 1997. There 
are no longer any tour routes over the middle of the park. 
There are none over the Havasupai Reservation, and there are 
none over a portions of the Hualapai Reservation.
    There are new, limited, restricted routes in the west end, 
and we have been able to accomplish all of this while 
protecting the Native American traditional cultural properties, 
and while fulfilling our trust responsibilities by continuing 
the aviation support needed by both the Havasupai and Hualapai 
Tribes.
    Before we had this legislation, FAA had already focused on 
the canyon because of a series of accidents that reflected its 
challenging aviation environment. In response to those 
accidents, FAA began limiting routes and setting altitudes. We 
required additional communications among operators, additional 
training for pilots, and other safety initiatives. These 
initiatives have been very successful in enhancing the margin 
of safety over the canyon.
    After this legislation, as we moved forward to implement 
the mandate to substantially restore natural quiet, it was 
FAA's role to also ensure that any changes we made in the 
aviation operations either maintained or improved the level of 
safety over the park, and I can tell you we have met that 
responsibility as well. None of the changes that we have made 
have reduced the margin of safety in any way, and FAA and Park 
Service agree that any changes that will be made must support 
or enhance the level of safety of air tour operators while 
accomplishing our goal related to noise.
    Over the last several years, we and the Park Service have 
learned much about measuring and reducing noise in the park. 
Over time, the Park Service has refined its measurement of 
substantial restoring of natural quiet and in response to those 
changes we have proposed and implemented new routes and new 
altitude limits. We have limited areas where tours may operate, 
and we have limited the times when they could fly.
    Before this most recent court decision, FAA and the Park 
Service together believed that the actions we have taken have 
restored natural quiet to 43 percent of the park. That was 
short of the full goal, but it was well on the way. The new 
court decision is yet another stumbling block in accomplishing 
our goals. The court has remanded some of our rules and 
directed that we reevaluate some of the work we have done.
    FAA and Park Service have not yet completely decided how we 
will respond to that court decision, but we do know that the 
Park Service will determine how to measure the substantial 
restoration of quiet, and we know that FAA will develop 
procedures and limitations to meet that standard while ensuring 
continued safe operation of the remaining tours. We are going 
to continue to work together as Mr. Hoffman has indicated to 
take whatever the next steps are that need to be taken.
    Sir, that concludes my testimony, and we are ready to 
answer any questions.
    [The prepared statement of Ms. Gilligan follows:]

Prepared Statement of Margaret Gilligan, Deputy Associate Administrator 
   for Regulations and Certification, Federal Aviation Administration
    Chairman Hollings, Senator McCain, Members of the Committee:
    I am pleased to be here to discuss the status of the implementation 
of the National Park Overflights Act that was passed in 1987. My name 
is Margaret Gilligan and I am the Deputy Associate Administrator for 
Regulations and Certification. My office, along with several others at 
FAA, is currently responsible for working with our colleagues from the 
National Park Service (NPS) to achieve the goals set forth in the 
legislation, namely the substantial restoration of natural quiet to the 
Grand Canyon National Park (GCNP). At the outset, I would like to say 
that FAA has worked and will continue to work diligently and 
cooperatively with NPS on this very important goal.
    National parks in this country are truly a national treasure. They 
provide people from all over the country and all over the world the 
opportunity to experience the magnificence and splendor of this great 
country, from the vistas of the Grand Canyon, to the beauty of mighty 
redwoods, to the monuments that grace this city. In 1987, Congress 
enacted the National Park Overflights Act (Act), recognizing the 
importance of preserving a pristine experience for visitors to the 
GCNP. The Act recognized that it was essential for visitors to 
experience the beauty of the park without the distraction of aircraft 
noise and directed that NPS and FAA work together to achieve a 
substantial restoration of natural quiet in the park. Toward that end, 
the legislation directed NPS to define the term substantial restoration 
of natural quiet and to submit recommendations to the FAA that would 
achieve that goal. FAA is responsible under the Act for implementing 
the NPS recommendations and ensuring that they are consistent with 
safety. Never before had FAA been directed to accomplish such a goal--
restoring natural quiet to a sizable land area where aviation tour 
operations were frequent and extensive. This task has proven more 
controversial and challenging than anyone thought it would be at the 
time it was passed. It is true that we have not yet fully achieved what 
Congress directed us to do in 1987. Critics have charged that we have 
been lax in our implementation of the Act. However, I assure you that 
we have been investing substantial time and resources on this issue for 
some time--even before enactment of the Act. I hope that my testimony 
today will show the complexity of the issues we face and that our 
efforts have brought us closer to achieving the worthy goals of the 
Act. To give you a graphical overview of the level of activity the FAA 
has been devoting to this issue, we have attached a matrix listing the 
work that has been completed with regard to GCNP.
    The FAA had been working to enhance the level of safety in the 
airspace over the park since before the legislation was passed. The 
operating environment over the canyon can be very challenging. After 
several air tour accidents over the Park during the mid-1980's, the 
need for further FAA regulation was evident. At that time, general 
aviation aircraft were operating below the canyon's rim where pilot 
options--should something go wrong--were extremely limited. 
Consequently, when Congress passed its legislation in 1987, FAA had 
already issued operating restrictions that prohibited aircraft 
operations below the canyon's rim and established fixed routes for 
aircraft to follow in order to reduce mid-air collisions and improve 
overall safety.
    Following passage of the Act, the FAA issued a Special Federal 
Aviation Regulation (SFAR) 50-2 in May 1988 in response to NPS 
recommendations. This SFAR restricted where and at what altitudes 
pilots could fly. At that time, we believed that this response to the 
NPS recommendations met the stated goal of the legislation.
    In 1994, NPS set forth its definition of substantial restoration of 
natural quiet--that 50 percent of the park achieve natural quiet (no 
audible aircraft noise) for 75 percent to 100 percent of the day--and 
issued recommendations on how to achieve the goal. As the Act requires, 
the FAA must follow the NPS definition of natural quiet and implement 
NPS recommendations unless the FAA identifies a safety problem with the 
recommendation. In 1994, NPS determined that aircraft noise would be 
audible at three decibels above the average natural ambient sound level 
(a so-called ``noticeability'' standard). While the FAA initially 
believed substantial restoration had been met with the implementation 
of SFAR 50-2, an environmental evaluation of commercial air tour 
operations in the park in 1996 indicated that SFAR 50-2 had not 
achieved that goal. At that time, the noise assessment concluded that 
only 31 percent of the park experienced natural quiet for at least 75 
percent of the day and that the percentage was likely to decline in the 
years to come without additional measures being taken.
    Based upon this assessment, in December 1996 the FAA issued a final 
rule that adopted the NPS definition and instituted additional 
operational restrictions for air tours, such as establishing new flight 
free zones, setting curfews that prohibited operation from sunset to 
sunrise, and limiting the number of aircraft that could be used to fly 
commercial air tours. At that time, we estimated that with these 
restrictions, in addition to the development and use of quiet 
technology, a substantial restoration of natural quiet would have been 
achieved by 2008. Unfortunately, the following year we determined that 
we had underestimated the number of air tour aircraft operating in the 
park, which resulted in the restrictions being less effective than had 
been predicted.
    After the publication of the 1996 final rule, the FAA was sued by 
both the Grand Canyon Trust and the Air Tour Coalition. The Grand 
Canyon Trust alleged that the government had not done enough fast 
enough and the Air Tour Coalition alleged that the government had done 
too much too soon. The Court found in favor of the government in this 
action.
    In 1999, NPS announced it was refining its methodology for 
assessing the noise impacts related to substantial restoration of 
natural quiet. NPS decided, after it had gathered additional data, that 
different thresholds of impact should be applied in different parts of 
the park: Zone One, approximately one-third of the park, would continue 
to apply an aircraft audible, or noticeability, standard--three 
decibels above the ambient sound level; and Zone Two, which is mostly 
the backcountry areas of the park, would have a ``detectability'' 
standard applied because visitors in these more remote areas are likely 
to be more active listeners who would be disturbed by aircraft noise. 
NPS data indicated that an active listener could detect aircraft noise 
at eight to eleven decibels below ambient noise levels. Consequently, 
NPS decided that the threshold for impact in Zone Two should be eight 
decibels below ambient noise levels.
    In January of 2000, the NPS issued a technical report on the Change 
in Noise Evaluation Methodology. This report suggested that quiet 
should be attained on ``any given day''--a change from the standard 
used in the Environmental Assessment we had issued. In February 2000, 
FAA issued a Final Supplemental Environmental Assessment in which FAA 
continued as it had in previous assessments to use the ``average annual 
day'' to determine the percentage of the day that would be 
substantially restored to natural quiet. The assessment did not 
consider noise from aircraft other than air tour operators because such 
noise was considered to be minimal.
    On April 4, 2000, FAA issued an Airspace Rule, which modified 
flight paths over the park, and a Limitations Rule, which imposed a cap 
on the total number of commercial air tours that may be operated over 
the park. Based on the noise modeling in the environmental assessment, 
which reflected the NPS change in noise evaluation methodology, FAA and 
NPS concluded that everything we had done would result in approximately 
43 percent of the park being restored to natural quiet. NPS was a 
cooperating agency, and concurred that the model we were using was 
appropriate.
    In May of 2000, FAA was sued by both the Air Tour Coalition and the 
Grand Canyon Trust. Both challenged the validity of the Limitations 
Rule. The Air Tour Coalition stated that the rule was unlawful for 
several reasons, including its reliance on what they believed was an 
improper change in the definition of natural quiet, and argued that the 
acoustic methodology was scientifically flawed. The Court of Appeals 
dismissed this challenge. The Grand Canyon Trust charged that the rule 
was unlawful because the FAA improperly altered the NPS definition of 
natural quiet by using an average day, rather than an any given day 
standard in our noise methodology, and because we failed to consider 
aircraft noise that came from aircraft other than those used by air 
tour operators. The Court of Appeals upheld this challenge and remanded 
the case to the FAA in order for the rule to be modified consistent 
with the court's ruling. That decision was issued on August 16, 2002, 
less than two months ago.
    Obviously, the court decision will require NPS and FAA to 
reevaluate the issues that were remanded to us. FAA is trying to 
determine how to obtain noise data that includes aircraft other than 
air tour operators. Throughout our preparation of the Limitations Rule 
FAA and NPS agreed on the use of an average day standard. We are trying 
to work out whether we should analyze noise on an average day or any 
given day or against some other standard. Once NPS clarifies the 
``day'' it intended for us to use, we will apply it.
    Until FAA and NPS survey the available data and FAA obtains 
guidance from NPS, FAA can only say that the percentage of the park 
that has achieved a substantial restoration of natural quiet ranges 
between 19 percent and 43 percent, depending on the methodology 
applied. A strict interpretation of ``day'' will almost certainly mean 
that to close the gap between where we are now and where we need to be 
will require placing additional operating restrictions on the air tour 
industry. As I have emphasized, NPS will determine the noise standard 
that is applied. The supplemental notice of proposed rulemaking on 
Noise Limitations for Aircraft Operations in the Vicinity of Grand 
Canyon National Park (proposing definitions of quiet technology) is 
undergoing executive review. While the implementation of a quiet 
technology designation will not by itself achieve substantial 
restoration of natural quiet in the park, we believe that the quiet 
technology standard is a vital component in the establishment of 
incentives and other mechanisms to achieve the goal.
    I do not underestimate the frustration this Committee feels about 
the fact that a statutory direction that was enacted in 1987 has yet to 
be fully implemented. This has been a challenging process in which the 
definition of success has evolved over time and the government has 
faced repeated legal challenges. The fact that substantial restoration 
of quiet has not yet been achieved does not mean that there has not 
been a significant reduction in aircraft noise at GCNP. The extent of 
our progress truly depends upon how it is measured. Our work will 
continue and I am confident that, in the end, visitors to the park will 
enjoy the experience envisioned by Congress and this Committee.

                           Matrix of FAA Actions Regarding Grand Canyon National Park
----------------------------------------------------------------------------------------------------------------
             FAA Action                  Date of Action         Purpose of Action          Status of Action
----------------------------------------------------------------------------------------------------------------
Established GCNP SFRA (altitude      March 1987              Create a protected       General shape of SFRA is
 border and area border) SFAR 50                              environment for          still there but has been
                                                              commercial air tours.    enlarged.
                                                              Further study of
                                                              environmental impact
                                                              of noise necessary
Established SFRA ceiling of 9,000    June 1987               Maintain protected       Has been raised twice as
 feet MSL in late 1980's with SFAR                            environment for air      recommended by NPS.
 50-1                                                         tours with other
                                                              traffic above
Established minimum terrain          June 1987               To ensure safety of air  In effect.
 clearance req. of 500 feet AGL                               tours
P.L. 100-91 enacted                  August 1987             To enable agencies to    Ongoing process.
                                                              substantially restore
                                                              natural quiet to the
                                                              Grand Canyon National
                                                              Park
DOI submits initial recommendations  December 1987           To meet goal of P.L.     FAA responds with SFAR 50-
                                                              100-91                   2.
Raised SFRA ceiling to 14,499 with   June 1988                                        Was raised by final rule
 SFAR 50-2                                                                             issued December 1996.
Establish flight free zones and      June 1988               Protect noise sensitive  FFZ's have been modified
 corridors                                                    areas of the Park as     to accommodate new route
                                                              determined by NPS        system and expanded to
                                                                                       provide more protection
                                                                                       of natural quiet as
                                                                                       recommended by NPS.
Establish certain routes for air     June 1988               Routes established that  Route structure developed
 tours                                                        would provide safe air   in SFAR 50-2 is currently
                                                              tours while avoiding     in effect for the east
                                                              areas that NPS deemed    end of the Grand Canyon
                                                              to be noise-sensitive    National Park (Dragon
                                                                                       corridor, east, including
                                                                                       Marble Canyon).
Establish communication              June 1988               Establish safety         In effect.
 requirements by requiring pilots                             related communication
 to monitor established frequency                             requirements
Final Rule published to create       March 1989              Amends SFAR 50-2 to
 corridor into airport on Hualapai                            respond to Hualapai
 reservation                                                  needs with regard to
                                                              growing business at
                                                              airport on
                                                              reservation.
Amend routing of Victor airway in    April 1989              Needed to route traffic
 vicinity of SFRA                                             around SFRA.
Final Rule extending SFAR 50-2       June 1992               Extension needed
                                                              because FAA was
                                                              waiting on NPS
                                                              submission of final
                                                              recommendations.
ANPRM published seeking input on     March 1994              FAA seeks public input
 how to manage air tour noise in                              on how to respond to
 GCNP                                                         P.L. 100-91
NPS Report to Congress on            September 1994          FAA states that          These recommendations
 Recommendations for Restoring                                extension is necessary   first establish the
 natural quiet to Grand Canyon                                so that it can           definition of substantial
                                                              complete its review of   restoration of natural
                                                              NPS recommendations      quiet and become the
                                                                                       basis for further
                                                                                       rulemaking conducted by
                                                                                       FAA.
SFAR 50-2 extended                   June 1995               FAA and NPS hold public
                                                              meeting to try and
                                                              resolve differences
                                                              between interested
                                                              parties.
Public Meeting on Grand Canyon       August 1995
 rulemaking
Presidential Executive Order on      April 1996              Seeks to push FAA and
 controlling air tour noise issued                            NPS to resolve
                                                              differences and
                                                              complete goal of
                                                              achieving substantial
                                                              restoration of natural
                                                              quiet by 2008.
NPRM published to raise SFRA         July 1996               NPRM is designed to      See December 1996 final
 ceiling, establish curfews,                                  further the goal of      rule.
 establish aircraft cap and create                            substantial
 reporting requirements for air                               restoration of natural
 tours                                                        quiet
Raised SFRA ceiling to 17,999 MSL    December 1996           SFRA raised to minimize  This was implemented in
 in 1996 Final Rule                                           non-air tour noise in    May, 2000, after being
                                                              the Grand Canyon         delayed for some time due
                                                              National Park            to difficulties tied to
                                                                                       1996 efforts to develop a
                                                                                       new route system.
Establish curfews on east end air    December 1996           Curfews established to   Curfews still in effect.
 tours (Dragon and Zuni Point                                 create protected time-
 Corridors)                                                   periods that would be
                                                              flight-free
Establish cap on number of aircraft  December 1996           Cap on aircraft          Removed by the April, 2000
 operating in SFRA.                                           established as a means   final rule because was
                                                              of controlling growth    not effective tool in
                                                              and the amount of        controlling growth and
                                                              noise in the SFRA        noise.
Establish reporting requirements     December 1996           Data provision           The data for the first
 for companies operating air tours                            established to develop   year collected was used
 in flight                                                    a database of air        as the basis for capping
                                                              tours                    the number of commercial
                                                                                       air tours in April, 2000
                                                                                       Final Rule.
NPRM proposing new route structure   December 1996           Tries to resolve         Ongoing process.
                                                              environmental issues
                                                              with existing route
                                                              system
NPRM published that would establish  December 1996           This NPRM is another     Opposed by many interest
 definition of quiet aircraft                                 step in NPS' plan to     groups. FAA has
                                                              substantially restore    determined that the only
                                                              natural quiet            way to proceed is to go
                                                                                       out with an SNPRM.
Air Tour Coalition and               January 1997            Challenge to legality    Case is decided in early
 environmental interests petition                             of 1996 final rule       1998 in FAA's favor. NPS
 Court of Appeals for D.C. Circuit                                                     was not a party to this
 for review                                                                            case.
Clark County Dept. of Aviation       January 1997            Asks FAA to reconsider
 files petition for reconsideration                           1996 Final Rule.
Grand Canyon Air Tour Coalition      January 1997            States that pilot
 files request for stay of routes                             training cannot be
 and airspace                                                 safely completed in
                                                              given time.
Grand Canyon Trust files opposition  February 1997           Asserts that Tour
 to stay request                                              operators have not
                                                              stated a valid reason
                                                              for stay to be
                                                              granted.
FAA stays effective date of          February 1997           Delay was necessary
 Airspace and minimum altitudes of                            because FAA believed
 1996 final rule                                              in light of comments
                                                              further evaluation of
                                                              proposed routes was
                                                              necessary.
FAA publishes NPRM proposing         May 1997                Provides incentives for  FAA prepares accompanying
 incentive corridors for quiet                                operators to convert     Written Re-evaluation and
 technology aircraft and new route                            to quiet technology      FONSI and determines
 system for all air tour aircraft                             aircraft. New routes     there would be no
                                                              for other air tour       significant environmental
                                                              operations would be      impact as a result of the
                                                              reduce noise in the      FAA actions. NPRM is
                                                              Park                     withdrawn in July of
                                                                                       1998.
FAA resurveys air tour operators     May 1997                FAA wanted to verify
 aircraft                                                     the number of aircraft
                                                              capped in the 1996
                                                              rule.
Notice of Clarification              October 1997            FAA issues notice to     FAA determines that
                                                              explain that 1996        overall conclusions
                                                              undercounted aircraft    reached in 1996 rule
                                                              used in air tours in     remain in effect. FAA and
                                                              GCNP                     NPS delay selection of
                                                                                       routes until 1998 pending
                                                                                       further analysis.
Airspace adopted in 1996 delayed     December 1997           Airspace delayed
 further                                                      pending resolution of
                                                              routes.
Public Meeting                       April 1998              Meeting held of all      Meeting ended early
                                                              interested groups to     because parties were
                                                              resolve the routes       unwilling to negotiate to
                                                              problem in Grand         reach a consensus
                                                              Canyon                   solution.
Court issues decision in Grand       November 1998           Court upholds FAA's
 Canyon I                                                     position.
NPS issues Notice proposing a        January 1999            Creates the two zone
 change in noise evaluation                                   system for measuring
 methodology for Grand Canyon                                 noise in GCNP.
FAA publishes NPRM proposing to      July 1999               Cap is designed to       Final Rule adopts cap in
 establish cap on total number of                             prevent growth in        April, 2000.
 air tours that can be conducted in                           number of air tours in
 the GCNP SFRA                                                Park
FAA publishes NPRM modifying         July 1999               Proposal is designed to  Airspace designed adopted
 Airspace in SFRA                                             modify airspace to       with minor modifications
                                                              accommodate new route    in April, 2000.
                                                              system
FAA publishes Notice seeking         July 1999               New route system         Routes adopted with minor
 comment on new route system for                              responds to NPS          modifications in April,
 GCNP SFRA.                                                   recommendations to       2000, but east end routes
                                                              protect certain areas    later stayed. West and
                                                              from noise               routes implemented May,
                                                                                       2001.
NPS finalizes its change in noise    July 1999               Notice states that
 methodology for GCNP SFRA.                                   definition of
                                                              substantial
                                                              restoration of natural
                                                              quiet is not changed.
Public meeting                       August 18-19            Public meeting held to
                                                              accept comment on
                                                              proposals issued.
Establish limitation on number of    April 2000              Limitation on number of  Limitation rule was
 commercial air tours that can                                air tours that could     challenged in the U.S.
 operate in the SFRA in a given                               operate in any given     District Court of Appeals
 year                                                         year established at      for the D.C. Circuit and
                                                              90,000 as a means of     the environmental
                                                              freezing the number of   analysis remanded for
                                                              tours and controlling    further work on average
                                                              growth                   annual day and cumulative
                                                                                       analysis.
Expand reporting requirements to     April 2000              Reporting requirements   Currently in effect.
 cover all flights flown by air                               implemented as a means
 tour operators in the SFRA,                                  of improving quality
 including transportation,                                    of existing database
 training, rescue, ferry                                      with regard to type of
                                                              aircraft noise
Modify route system                  April 2000              Route system final rule  West end of route system
                                                              adopted April, 2000 to   implemented April, 2001.
                                                              further the goals of     East end stayed pending
                                                              substantial              resolution of safety
                                                              restoration by moving    issues. Airspace Rule
                                                              traffic from near the    that accompanied this
                                                              flight free zones (by    also stayed pending
                                                              removal of blue 1).      completion of routes.
                                                              Route system also        Airspace Rule also stayed
                                                              designed to              before U.S. Court of
                                                              accommodate tribal       Appeals for the D.C.
                                                              TCP's                    Circuit, where it is
                                                                                       being appealed.
                                                                                       Environmental analysis at
                                                                                       issue in the Limitation
                                                                                       Rule also at issue here.
Petition for review filed by U.S.    May 2000                Challenge to April 2000  Court denies petition for
 Air Tour Association and several                             final rules              review of operators.
 air tour operators and by Grand                                                       Court grants petition for
 Canyon Trust and several                                                              review of Trust and
 environmental groups in D.C.                                                          remands EA back to FAA
 Circuit Court of Appeals                                                              for analysis on
                                                                                       cumulative impacts and
                                                                                       for FAA and NPS to again
                                                                                       determine whether the use
                                                                                       of average annual day is
                                                                                       the best methodology.
FAA issues Administrative Stay of    November 2001           FAA stays entire route
 routes                                                       system pending
                                                              resolution of safety
                                                              issues raised in
                                                              litigation.
FAA publishes final rule             November 2001           Stay of east end routes  West end implemented
 implementing west end routes and                             necessary to modify      April, 2002. East end
 staying east end routes                                      routes in light of new   routes currently stayed.
                                                              safety issues raised
                                                              by operators
----------------------------------------------------------------------------------------------------------------


    Senator McCain. Thank you very much.
    Mr. Hoffman, why hasn't the noise modeling used by the Park 
Service been validated?
    Mr. Hoffman. As I indicated, sir, there has been required a 
lot of ground testing to validate that model. I believe they 
are about to select a model. There were three models that were 
tested, the FAA model, the National Park Service model, and a 
third model developed by NASA and the Air Force, and 
preliminarily it appears that the NASA/Air Force model probably 
best measures natural quiet in the park.
    Senator McCain. Air tour operators believe no matter how 
quiet an aircraft can be, any air tour that is audible will not 
satisfy the Park Service or environmental critics in the 
industry. What is your reaction to that?
    Mr. Hoffman. I do not believe that is true, sir. The goal 
is to restore 50 percent of the park quiet 75 percent of the 
time. That leaves 50 percent of the park noisy 75 percent of 
the time, or 25 percent of the time.
    Senator McCain. If you tried this alternative dispute 
resolution course, where would that happen?
    Mr. Hoffman. In the canyon area would be my goal.
    Senator McCain. Do you have someone who oversees it, 
someone who is involved in it, or does everybody just sit 
around at the table?
    Mr. Hoffman. It would be my intention to involve the U.S. 
Institute for Environmental Conflict Resolution, based out of 
the Udall Foundation, and we have used them successfully in the 
past on other issues. The key is to have a good facilitator who 
can keep people focused on the issues. The key is to develop 
better working relationships so that people can actually sit 
down and talk to one another without posturing and 
grandstanding. This issue has been going on for some time, as 
you well know, sir, and patience on everybody's part has grown 
thin. We need to work through that and stay focused on the 
goal.
    Senator McCain. Ms. Gilligan, you are very aware of the 
appeals court decision on the Grand Canyon overflights.
    Ms. Gilligan. Yes, sir.
    Senator McCain. Is the noise from nontour aircraft truly 
incidental, or will that part of the court's ruling make it 
harder to restore natural quiet without severe restrictions on 
air tours?
    Ms. Gilligan. Well, we are certainly looking at that piece 
of the decision. We did have some limited data collected back 
in the early Nineties where we did try to quantify the numbers 
and amount of general aviation traffic. Because, of course, 
this is not controlled airspace, we do not have the kinds of 
records we might have for airspace around major airports. We 
believe that we can develop some additional information that 
will demonstrate that non tour aircraft amount to a minimal 
amount of traffic over the park.
    Regarding the other piece the courts asked us to look at, 
which is aircraft on our airways over the park, we believe we 
have tools that already measure the effect of aircraft at 
altitude, and we believe we can demonstrate, that, again there 
is a very minimal impact for aircraft passing at altitude over 
the park. But we will have to look at how we can collect and 
quantify that data, if we do, indeed, have to respond to that 
element of the court decision.
    Senator McCain. In your testimony, you state the quiet 
technology rule is in, quote, ``final review.''
    Ms. Gilligan. Yes, sir.
    Senator McCain. What does that mean? Former Administrator 
Garvey responded to a letter I wrote and told me the rule was 
in final coordination to implement the National Parks Air Tour 
Management Act of 2000. Six months later, there has been no 
action. What does ``final review'' mean, Ms. Gilligan?
    Ms. Gilligan. Well, sir, actually we are required to review 
our significant rules with the Department of Transportation and 
in some cases even the Office of Management and Budget. This 
rule has been with the Office of the Secretary.
    We also now have a new Administrator in place. She has 
asked that we brief her in detail on both the statutory 
requirement and that final rule, and so we are trying to get on 
her schedule to do that. Obviously, this hearing brought that 
to her attention. She was very troubled that that rule 
continues to be delayed, and we will be working with her to get 
this out as quickly as we can now.
    Senator McCain. So we do not know what final review means, 
because you have to get on her schedule.
    Ms. Gilligan. Yes. I have to schedule some time with her, 
but I do not think that will be difficult. She is very aware of 
your interest, and she is the one who has asked us to get on 
her schedule, so I am sure we will do that shortly.
    Senator McCain. Are there issues between the FAA and the 
Park Service that have complicated and therefore delayed the 
promulgation of the final rule?
    Ms. Gilligan. Sir, I think, as you started in your earlier 
comments, there is plenty of blame to go around. I think it is 
certainly accurate to say that at the start of this process 
that FAA was probably slow in getting involved as deeply as we 
could have or should have. Having said that, we did then begin 
to work with the Park Service.
    Another complicating factor has been the evolution of the 
measurement process around which there has been much discussion 
and debate among technical people, and reaching conclusions on 
those issues has been slow. But ultimately we and the Park 
Service reached agreements, we got through the process, we 
proposed to take action, and invariably everything we have done 
has been litigated. So, each of the people you will hear from 
today, both this panel and the next, has played a part in 
causing this to be a very slow and cumbersome process.
    Senator McCain. Once a final rule is issued, how soon will 
the two agencies be ready to develop an air tour management 
plan?
    Ms. Gilligan. For the overflight statute we are well 
prepared to begin to implement. We have spent the time while we 
finalized the rule preparing extensive plans for how to 
approach this. We have a program manager, as does the Park 
Service. The individual superintendents and their FAA 
counterparts have already been in touch, and so we are ready to 
get going.
    It will be an expensive process because, of course, for 
each park there will be an environmental evaluation that will 
need to be done, so we have also tried to add to our budget to 
support that. We are ready to start those as soon as the rule 
becomes final.
    Senator McCain. Concerning the general overflights issue, 
Ms. Gilligan, I have received reports that new air tour 
operations have begun at certain national parks since the act 
was passed in 2000. I have heard existing air tour operators 
have expanded operations since the law was designed to impose a 
moratorium on new or expanded operations, pending the 
development of air tour management plans at affected parks. How 
will the FAA deal with new or expanded operations once the 
final rule has been issued?
    Ms. Gilligan. Well, sir, once a rule is issued every tour 
that is operating must, of course, apply for their interim 
authorities, and we will be monitoring that process very 
closely. I have not heard that there were new startup 
operations. Certainly we will look into that when I get back to 
the FAA, but the process is quite clear, very well set out in 
the statute. The rule does require that operators identify 
themselves and come in for their interim authorities within, I 
believe it is 90 days of the publication date of the rule. From 
that we will know what the scope of the potential operations 
over a particular park might be as we do, then, the planning.
    Senator McCain. Mr. Hoffman, do you believe that the issue 
of quiet technology has been given enough priority in this 
whole discussion?
    Mr. Hoffman. I think it has taken a back seat to the 
definition of substantial restoration of quiet. The people I 
talked to indicate that quiet technology plays a very key role, 
but in and of itself will not get us to substantial restoration 
of quiet.
    There are two ways to look at quiet technology. One is 
quieter aircraft, the other is what they call noise efficiency. 
In other words, maybe a larger aircraft carrying more people 
making the same amount of noise might be a more cost-effective 
and actually more substantive way to achieve quiet than 
actually trying to implement whatever mechanical technology may 
exist, but I do know that in the industry they are working on 
quiet technology. I personally witnessed a demonstration of a 
quiet technology helicopter here this spring, and I think they 
are taking it very seriously at this time.
    Senator McCain. My understanding is that with the proper 
incentives there is quiet technology out there that could be 
adopted by air tour operators if there were incentives for them 
to do so, and that--well, I can assure you that that was the 
intention of the authors of the legislation. I know it was for 
Mo Udall and myself. I believe that it is an issue that should 
be given more consideration as we go about trying to obtain 
what all of us are seeking.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I sense the frustration in some of your 
questions, and I share some of those same frustrations, as I 
think almost everybody who has dealt with this issue shares 
those frustrations.
    I want to ask a couple of questions, and a lot of it does 
have to do with the quiet technology, the rule now being 18 
months overdue. Just to get a little more specific on that 
rule, can you give us a guess on time line?
    Ms. Gilligan. Sir, I found myself faced with this question 
oftentimes in this kind of setting, and I can promise you that 
it does have the Administrator's interest. She has been on the 
job now for 3 weeks, and she has, as a result of this hearing, 
come to understand that there is a rule, that we must pay 
attention to. We have the mandate from her to get a focus on 
this rule and get it moving, and we will do that as quickly as 
we can.
    Senator Ensign. When I was in business, or now when I run 
my office, if I tell my staff, I want you to really get on 
that, and I do not give them a time line, I find that things do 
not get done.
    Ms. Gilligan. I share your concern. There are people 
beyond----
    Senator Ensign. Do you have a goal for the time line?
    Ms. Gilligan. Yes. I have a goal to get it out as soon as I 
possibly can.
    Senator Ensign. What does that mean? Soon could be 2 years 
to some people.
    Ms. Gilligan. I understand, and again I share the 
frustration. Some of it involves individuals beyond the FAA. 
For those, the Administrator is going to have to use her good 
offices to influence decision making, and she has, I believe, 
every intent to do that, and so it is beyond our control to set 
a specific date, but I can assure you it is a project that we 
are not going to let fall by the wayside. It is a project that 
the Administrator will support pushing through the 
administration as quickly as we possibly can, but I do not have 
the ability to set the dates for others who are involved in the 
process.
    Senator Ensign. What are your goals, then, for the dates of 
your part of the process?
    Ms. Gilligan. Our rule is already out of the FAA. It is 
already in the hands of others for their review. We have 
accomplished that. Now we are going to see if we can get them 
to set some time lines that we might be able to stick to.
    Senator Ensign. According to the quiet aircraft technology, 
if an air tour operator is not meeting that, there are the 
caps. What are you doing about the caps? Do you have rules 
proposed for the caps being alleviated for those people who are 
able to meet those, or do we have to go through this again with 
that rulemaking process?
    Ms. Gilligan. No, sir. The statute in fact allows the link 
between the use of quiet technology and the release from the 
caps, and actually what we are going to set in the rule is a 
performance standard. If you meet that standard, then the 
aircraft will be determined to be quiet technology and, based 
on that, the statute would allow for a change to the 
limitations on the caps.
    Senator Ensign. Getting to what Mr. Hoffman said, though, 
when you just talked about--you know, one of the ways to meet 
the quieter technology is to have a larger airplane, but it is 
just as noisy. How do you certify that an aircraft is quieter 
if it is just bigger?
    Ms. Gilligan. Actually, the work that has been done in 
support of this rule does, in fact, demonstrate that there is a 
fairly natural cutoff among certain types of currently 
operating aircraft, and so below the line they are 
substantially quieter than aircraft that are above the line, 
and that would be the standard that we would propose to set the 
rule.
    Senator Ensign. Maybe I am just not following in some way. 
I understand normally defining--you have got above certain 
decibels, it does not meet quiet below certain decibels, but 
with what Mr. Hoffman said about, to meet that same amount of 
noise during the day, you are looking at, instead of an 
individual aircraft, you are looking at the total noise during 
the day, and you could have something five times the size for 
one aircraft, but it only goes in there a lot less often. Then 
you could meet the total number for the day, but how does the 
FAA define that as far as according to the caps and things?
    In other words, now I am meeting the caps, but I take that 
noisier airplane in there more often. I do not understand how 
that squares.
    Ms. Gilligan. Actually, I think again when the project is 
published the data will show that there are some larger 
aircraft that are also substantially more quiet, so you are 
right--unfortunately, we have a really nice diagram that I am 
sorry I did not bring,--there are some aircraft already in 
operation that have a fairly high number of seats but are much 
quieter than many of the other aircraft operating in the Grand 
Canyon or over other parks.
    Senator Ensign. Correct, but that is not what Mr. Hoffman 
is saying. He is saying the same kind of airplane, noisier. You 
would just make the point--and correct me if I am wrong, you 
were making the point that total noise during the day, if you 
bring in the same kind of noisy aircraft in but it is bigger, 
but you bring it in less often--isn't that what you were 
saying?
    Mr. Hoffman. I am falling into the same trap of giving a 
goal without necessarily a solution to getting there. It may be 
that what we need to do is work together to look at noise per 
air tour visitor kind of a measurement in order to do that. The 
caps right now are on the number of aircraft operations, and 
you are exactly right, that poses a significant challenge 
there, so maybe we ought to look at caps in terms of numbers of 
visitor flights so that you would have more visitor flights per 
larger aircraft.
    Senator Ensign. Whichever way we do it, I think what the 
air tour operators are asking for is, they are just asking how 
do we meet this? In other words, I am trying to write a 
business plan, and I have got--I mean, I understand the concern 
of people for quiet technology and all of that, wanting a 
wonderful experience at the parks.
    I do not like sitting in my backyard and having airplanes 
fly over my backyard. I live near the North Las Vegas Airport, 
and occasionally they direct the traffic over our backyard and 
I do not like that, so I understand people do not like 
overflights.
    But at the same time I have got to be empathetic to the air 
tour operators who are trying to run a business, and they are 
just trying to say, hey, what are the rules and how do we meet 
those rules and we will try to do our best. Is there 
technology, what are the rules going to be? And I think that is 
where the frustration of a lot of people is coming in, is that 
every time they seem to be trying to meet something, the rules 
seem to be maybe changing a little bit, sliding a little bit, 
and I think that is where a lot of the frustration you are 
hearing out there is coming from.
    I asked this question--we had a hearing with Jim Hansen in 
Southern Utah a few years ago on this same issue, and I would 
ask the question, how many complaints a year does the National 
Park Service get on noise complaints? Can you give me the 
latest numbers on those?
    Mr. Hoffman. I do not have those numbers available. I have 
asked the Park Service to conduct a back country survey to 
ascertain exactly what the visitor experience is at this point 
in time, because that seems to me part and parcel with the 
issue of restoration.
    Senator Ensign. What about complaints that the Park Service 
gets in without actually going out and asking?
    Mr. Hoffman. That is a good question. I have not asked that 
one. We will ask that and get you the answer.
    Senator Ensign. How many visitors a year do they have?
    Mr. Hoffman. 800,000 three years ago.
    Senator Ensign. That is overflights. I am talking about 
visitors to the park on the ground.
    Mr. Hoffman. 5 million.
    Senator Ensign. The reason I asked and bring up the 
question is, I asked how many complaints that they were getting 
a year, and they said between 20 and 25, and I said, 20 and 
25,000 complaints a year, and they said, no, 20 to 25 out of 5 
million, because I had just come out of the hotel industry. I 
was thinking, 20, well, I would kind of take those numbers if I 
had 5 million visitors a year, because the way that you 
figure--I do not care whether it is Disneyland, what resort 
industries you are in, when you have got the number of 
complaints, they have got formulas to figure out actually how 
many people--you multiply, usually, the number of complaints 
for every one person that complains you figure about 20 people 
would have complained, and so if we multiply that by 20, it is 
still a pretty low number, in other words 400 to 500 out of 5 
million.
    So that was just--what are we doing with--I mean, we want 
to restore as much as we can, possibly, there is no question 
about that, but we have just got to be reasonable about this 
thing and let us get it done so that people know how to run 
their businesses.
    Mr. Hoffman. There is a lot we can do in the area of 
determining what the visitor experience is and how much we have 
improved the visitor experience, and that certainly I believe 
has a bearing on this.
    Senator Ensign. If you could get me the numbers, because 
things supposedly are better. We should have fewer complaints 
than we had 4 or 5 years ago.
    Mr. Hoffman. One would think.
    Senator Ensign. If you could get me those numbers, I would 
appreciate it.
    Thank you, Mr. Chairman.
    Senator McCain. I would just add, Senator Ensign, the 
reason why Mo Udall and I passed this bill is because being 
outside El Tobar Lodge was like being at the end of the runway 
at Phoenix Sky Harbor Airport. I mean, it was disgraceful, and 
it was in direct contradiction to Teddy Roosevelt's admonition 
about our treatment of the park, so there was a reason for the 
legislation being passed, and it was a serious reason, and the 
air tour operators recently have been very helpful.
    At first, they were entirely negative, and one of the 
reasons why the 15 years has passed is because of the absolute 
recalcitrance early on of the air tour operators, and I would 
be glad to have Mr. Stephens, who I have dealt with for many 
years, respond to that when he comes forward, but that has been 
my experience as the author of the initial legislation.
    I respect Teddy Roosevelt's admonition, and I am sure, 
although he did not know that much about airplanes in those 
days, he did not want a continuous, and it was continuous, 
noise of helicopters and airplanes over the areas that were 
most visited over the Grand Canyon. But I do agree with you; we 
should be able to establish some balance here, and obviously 
over 15 years we have been unable to so far, and I thank you 
for your involvement in this issue.
    Senator Ensign. And just real briefly, Mr. Chairman, if I 
may, I have only been involved in it, obviously, a lot shorter 
than you have been involved in it, and I understand that things 
happen, because when I asked that question--it was just a few 
years ago when we asked that question, and I think because of 
your legislation things have improved. Now it is just a 
question of finalizing everything.
    Senator McCain. I thank you very much, Senator Ensign, and 
again I hope, I know as an important member of this Committee 
that we will continue to work together and try and get some 
resolution of this issue.
    I thank both of the witnesses. I understand that you are 
giving this a very high priority. Please do not make us come 
back with another hearing a year or so from now, and without 
any progress being made. We owe our constituents and the 
American people better service on this issue than they have 
been getting.
    Thank you very much.

    Mr. Stephens of Grand Canyon Airways, Mr. Tom Robinson of 
the Grand Canyon Trust, and Mr. Steve Bosak of the National 
Parks Conservation Association are our next witnesses. Welcome 
to all three witnesses. Mr. Stephens, if you would like to 
proceed, then Mr. Robinson and Mr. Bosak.

  STATEMENT OF ALAN R. STEPHENS, VICE PRESIDENT, GRAND CANYON 
 AIRLINES, CEO, TWIN OTTER INTERNATIONAL, ON BEHALF OF UNITED 
                  STATES AIR TOUR ASSOCIATION

    Mr. Stephens. Thank you, Mr. Chairman. I submit my prepared 
statement, that outlines my 20-year history of my personal 
involvement in Grand Canyon over flights. I am reminded that, 
Ed Norton and I, together testified before the various enabling 
Committees back in 1986 leading to the 1987 Overflight Act and, 
as I outlined in our testimony, we saw early on that the debate 
between the Park Service and Native Americans, the 
environmental representatives and the air tour operators was 
contentious, it was unrelenting, it was unfocused, and through 
it all we had to have two things happen: We had to bring safety 
to air touring over Grand Canyon, and we had to bring a 
restoration of natural quiet.
    Your example of El Tovar is a good example, because that is 
exactly where we flew. By the air traffic protocol that we had 
to follow then, we finished our air tours of the Grand Canyon 
over El Tovar and the South Rim Village. Whether we flew from 
Las Vegas or out of Tuyasan, we came right up the middle of the 
canyon, right over the top of Phantom Ranch, right over the top 
of the South Rim Village. That resulted in 1,000, 1,200 written 
aircraft noise complaints a year that the Park Service was 
receiving and when we had to bring to an end complaints over 
aircraft sound. To my lasting chagrin, we never really defined 
what natural quiet was, but we agreed to restore it at Grand 
Canyon.
    There is nothing in the Congressional Record about natural 
quiet. No questions about natural quiet were asked. None of us 
that testified at the time talked to the concept of natural 
quiet. I think in my own mind it just meant visitor experience, 
that we needed to provide for a balance between competing uses, 
and that if we established a limited number of routes instead 
of random flying over the Grand Canyon, if we selected where we 
flew so we did not go over impact areas--we recognized that 
there was going to be areas of the canyon that would have some 
air tour noise, but it would be minimal to the vast majority of 
ground visitors. That was in my mind how to achieve natural 
quiet.
    We were the first organization to come out for special use 
air space so there would be a regulatory scheme at the Grand 
Canyon for making sure the air tour operators complied, and of 
course we supported the 1987 legislation. I have been also a 
strong proponent of the regulatory negotiation process. As you 
may recall, Senator, you asked us, the environmental community 
and the air tour people, to come together I believe it was in 
1996 in Phoenix. You were with us by telephone. You asked us to 
see if we could find middle ground. We could not at that time. 
It was very frustrating.
    Subsequent to that, because of President Clinton's 
executive order mandating that there be some regulatory scheme 
for national parks Nation-wide, a regulatory advisory Committee 
was created that had four representatives of the environmental 
community, one of the business community, one of the Native 
American community, and four of us on the aviation side. We 
were successful in coming together in a regulatory negotiation. 
It was contentious. But it was a learning process for all of us 
in understanding how the Park Service manages the national 
parks.
    The environmentalists I think learned a lot about how we, 
the air tour industry, operate under a regulatory scheme at the 
FAA. I have outlined this in the testimony. We were successful 
in coming up with an air tour management plan process which, 
through your leadership, was enacted in law. As a result of 
that success, the Park Service and FAA invited us, again the 
environmental community, the Native Americans, and the air tour 
interests, to come together in a regulatory negotiation for 
Grand Canyon. I believe it was summer of 1998, and we did, in 
Flagstaff.
    And my recollection of that meeting is pretty firm. We on 
the air tour side were willing to sit down and put everything 
on the table, the number of routes, hours of operation, number 
of flights but that we needed to bring the Grand Canyon 
overflight matter to final resolution. It was evident that we 
were going down a road that was leading nowhere. Unfortunately 
the other side, the environmental interests, and not 
necessarily these gentlemen on the panel with me today, but 
representing organizations they represent, those 
representatives at the Flagstaff meeting felt that they could 
not represent their organizations and commit to a regulatory 
negotiating alternate dispute mechanism, or whatever you want 
to call it for Grand Canyon.
    My view is, we would not be here today in 2002 had we been 
able to sit down then and hammer this thing out the same way we 
were able to hammer out in about a 15-month period the national 
overflight regulations.
    I would like to just conclude with one thing that I believe 
you understand, and understand as well as anybody, if not 
better than most. Grand Canyon Airlines in the 1985 time frame 
was operating very noisy single engine Cessna 207s with just 
seven passenger seats. We were flying 10,000 flights a year. 
The owners of Grand Canyon Airlines, Elling Halvorson and John 
Siebold, felt strongly that we had to do something about air 
tour sounds outside the regulatory scheme of the FAA and Park 
Service. John and Elling developed the Vistaliner, which of 
course has become the predominant air tour plane of Grand 
Canyon, and it employs quiet aircraft technology.
    We went from approximately 10,000 flights a year with the 
207s to about half that number of flights with the Vistaliner, 
and actually hit our peak in passengers flown in the early 
1990s with about 6,000 flights annually. We have never flown as 
many air tour flights as we were flying at the time that the 
National Parks Overflight Act was enacted. And today, because 
of the nature of the caps, arbitrarily picked--the cap number 
was the actual number of air tour flight flown from April of 
1997 to May of 1998, we were locked into 3,165 flights, less 
flights that Grand Canyon Airlines has flown for almost 25 
years. But the thing that is very frustrating is that we took 
the time to go into larger airplanes for less flights and 
developed quiet aircraft technology, and we have been a real 
proponent for recognizing that. But that voluntary effort has 
never been recognized in Grand Canyon air tour flight caps.
    All these air tour regulations at Grand Canyon since 1987 
have always treated all aircraft flying at Grand Canyon the 
same. We are under the same restrictions. We have no 
incentives, and I think that is time that something be done. I 
appreciated the recommendations that came from the Government 
witnesses this morning, but again I want to thank you and give 
you a little bit of my feeling on this matter after twenty 
years. Thank you for your attention. I would be happy to answer 
any questions you and Senator Ensign may have.
    [The prepared statement of Mr. Stephens follows:]

 Prepared Statement of Alan R. Stephens, Vice President, Grand Canyon 
Airlines, CEO, Twin Otter International, on behalf of United States Air 
                            Tour Association
    Mr. Chairman and Members of the Committee, I am Alan R. Stephens, 
vice president of Grand Canyon Airlines, an air tour operator at Grand 
Canyon National park. I also serve as chief executive officer of Twin 
Otter International, Las Vegas, NV, a leasing company that produces 
deHavill and Twin Otter aircraft in ``Vistaliner'' configuration used 
widely for aerial sightseeing, particularly at Grand Canyon. The 
Vistaliner employs quiet aircraft technology that we developed in 
making the Vistaliner among the quietest air tour aircraft flying 
today.
    This hearing seeks testimony on the current rules and restrictions 
governing overflight of national parks and public lands. I would like 
to address that by speaking specifically first to the status of the 
rules at Grand Canyon and what impact these rules have had on the air 
tour business. Then I will address our thoughts on the process that is 
in place to manage air tours over national parks nationwide.
Grand Canyon Overflight Regulations
    I have spent the better part of the past two decades seeking to 
preserve a meaningful air tour experience at Grand Canyon while I have 
staunchly advocated air tour regulations that reasonably protect Grand 
Canyon ground visitors from aircraft sounds. It is in that context I 
speak today in total frustration about how our government has long ago 
lost its way in developing fair air tour management rules.
    I first became involved in Grand Canyon overflight issues in the 
mid-1980's. There was no special use airspace designated then by which 
air tour operators were regulated. Therefore individual operators were 
free to fly whatever routes at whatever altitudes they desired 
regardless of how those routes impacted sensitive visitor rim, trail, 
and river activities and the historical and cultural sites within and 
around Grand Canyon. The debate between the Park Service, environmental 
and native-American interests and the air tour industry on how to deal 
with overflights at the time was heated, unfocused and unending. That 
controversy was not good for air tour business because we were not 
perceived as good neighbors yet many in our industry felt that the 
flight restrictions that were being proposed would soon put them out of 
business.
    Despite that debate, some of us in the air tour business recognized 
that something had to be done. The companies with whom I am associated 
were the first in the industry to seek creation of a special use 
airspace over Grand Canyon. We recognized that it was necessary for air 
safety reasons to restrict the number of, and to provide for, separate 
routes for fix wing and helicopter operators, and to establish minimum 
operating altitudes and aircraft position reporting protocols. 
Importantly we felt that all air tours over Grand Canyon had to be 
regulated under the commercial aviation rules of Part 135 so operators 
would comply with commercial aviation standards for flight crew 
qualification and training. Under Part 135 and its power to bring 
certificate action, FAA could also enforce strict compliance with the 
Grand Canyon overflight regulations.
    Our companies recognized that there needed to be finality in the 
debate over aircraft sound impact. We actively supported the passage of 
legislation that had as its objective substantial restoration of 
natural quiet and visitor experience at Grand Canyon. I so testified 
before this Senate Committee then and it became law as the National 
Parks Overflights Act of 1987.
    The resulting air tour regulations at Grand Canyon are known today 
as special use airspace, ``SFAR 50-2.'' This rule has resulted in air 
tours being conducted for the past decade and a half in a safe and 
efficient manner for the confidence of the flying public. The route 
restrictions and establishment of flight-free zones have resulted in a 
stunning decline in visitor complaints over aircraft sound, from over 
1,000 annually to about two dozen per year and that decline in noise 
complaints comes even as park visitation has doubled from 2.5 to about 
5 million persons annually. Vast stretches of Grand Canyon are free 
today from air tour overflight and for the vast majority of Grand 
Canyon National Park visitors, air tour aircraft are inaudible.
    Unfortunately, that result has not satisfied the critics of air 
tours at Grand Canyon and debate over ``substantial restoration'' and 
``natural quiet'' has raged on. Over the years there have been numerous 
public hearings, congressional inquiries, sound studies, policy 
determinations and rulemakings and I have participated actively in 
virtually all of them. Unfortunately these actions have resulted in 
ever more severe and I believe largely unwarranted air tour flight 
restrictions. Let me cite a few examples:

  <bullet>  The most popular air tour route, Las Vegas to the Grand 
        Canyon-South Rim, has been eliminated affecting 400,000 air 
        tour passengers annually.

  <bullet>  Curfews have been imposed on South Rim-originating air 
        tours that are neither tied to the hours of sunrise and sunset 
        or dates for observing daylight savings; meanwhile motorized 
        raft trips are free to operate during periods of the day air 
        tours cannot.

  <bullet>  NPS would have the North Rim of Grand Canyon off-limits to 
        air tours even though the North Rim is closed to ground 
        visitors seven months per year because it is impassible due to 
        snow.

  <bullet>  Caps on operations have been imposed unrelated to 
        historical levels of activity leaving my company, Grand Canyon 
        Airlines, limited to less than half the number of air tour 
        flights than it conducted a decade earlier and despite our use 
        of quiet aircraft.

    Quiet aircraft technology to us has always been a key in permitting 
quality air tours over Grand Canyon to continue, while reducing air 
tour aircraft audibility to an acceptable level for most ground 
visitors. Quiet aircraft technology does not render any aircraft 
absolutely quiet and some of our critics are fond of saying so in 
opposition to quiet aircraft incentives. Yet, the flaw in such thinking 
is that the whole air tour regulatory scheme at Grand Canyon since 1987 
has been that air tour restrictions have been applied without regard to 
how noisy or how quiet any particular air tour aircraft may be.
    We were particularly pleased . . . and hopeful . . . when this 
Senate Committee initiated legislation in 1999 to require NPS and FAA 
to define quiet aircraft and provide meaningful incentives for air tour 
operators of conventional aircraft to retrofit them with quiet aircraft 
technology. I am sure you are as acutely aware, as we are, that two and 
one half years after the President signed that legislation into law, 
all we have to show for quiet aircraft technology is a report to 
Congress from FAA that it cannot comply with your directive.
    This continuing debate over substantial restoration of natural 
quiet at Grand Canyon rages because each time the National Park Service 
sets out its definition, NPS inevitably changes that definition to ever 
lower thresholds of air tour sound detection. Even now, the noise 
modeling used by NPS at Grand Canyon has not been validated (by NPS's 
own admission in the Federal Register Notice that established minus 8 
dB below ambient for measuring natural quiet) nor are the regulations 
for air tour restrictions final. Instead the latest round of flight 
restrictions we have fought so hard over these past four years would be 
only interim measures until a final ``Comprehensive Noise Management 
Plan'' for Grand Canyon is developed. I am no expert in the science of 
sound. As a layman, I suspect that as long as our aircraft are audible, 
no matter how quiet and far removed from the sites ground visitors 
frequent at Grand Canyon, we will NEVER satisfy the National Park 
Service and our environmental critics until air tours are eliminated 
entirely at Grand Canyon.
    This is particularly troubling to me because I remember my 
discussions with Senate and House Committee chairs, Senator Dale 
Bumpers and Representative Bruce Vento regarding passage of the 
National Parks Overflight Act. I was assured that the legislation in no 
way was intended to put air tour operators at Grand Canyon out of 
business but that Congress had serious concerns over air tour flight 
safety and air tour aircraft sound it wanted FAA and NPS to address. 
Those problems were largely resolved by SFAR 50-2. Thus, its time to 
bring this matter to an end by adopting a set of reasonable and final 
air regulations based on real-world measurement of air tour aircraft 
sound and incentives for air tour operators to employ only quiet 
aircraft.
National Parks Overflight Management
    President Clinton in 1996 signed an Executive Order directing the 
Departments of Interior and Transportation to develop a framework for 
regulating air tour activity over national parks nationwide. Wisely, 
these agencies recognized that the best chance for enacting such rules 
in a timely manner was to bring NPS and FAA together with aviation, 
environmental and native-American interests in developing such national 
air tour regulations. Thus the National Parks Overflight Working Group 
(NPOWG) was commissioned and I am proud that I was asked to serve as a 
member of that federal advisory Committee.
    NPOWG worked because we all had a stake in the outcome of that 
process. Aviation members proposed that air tours nationwide be 
regulated using the Grand Canyon model: that air tours would be flown 
under FAA Part 135 rules and Operations Specifications that would 
prescribe tour routes, altitudes, and frequencies. Environmental and 
native-American interests brought to the table expertise regarding the 
mandate of the NPS to preserve and protect national park resources and 
sensitive historical and cultural sites within or adjacent to our 
national Parks. We all recognized that air tour regulation had to be 
developed in accordance with the National Environmental Protection Act 
(NEPA). We argued, but resolved, the matter of lead authority and 
cooperating authority of the Federal Agencies and what objectives were 
to be achieved in regulating national park air tours . Our sessions 
were fractious, but productive. We finally agreed that air tours over 
National Parks should be permitted, but not in all circumstances, and 
that air tours should be conducted in accordance with the reasons our 
national parks were established; to protect for future generations 
unimpaired their unique resources whether geological, biological, 
historical or cultural.
    The product of NPOWG, the ``Air Tour Management Plan'' (ATMP) 
process was not perfect, but we felt it was workable. We recommended 
that it become a matter of federal law and that the same interests, 
aviation, environmental and native-American, continue to have an 
advisory role in its implementation. Once again, this Senate Committee 
led the way in introducing that legislation and it too was signed into 
law two and one half years ago in the same legislation that provided 
for revitalizing our aviation infrastructure and directed FAA to adopt 
quiet aircraft incentives at Grand Canyon. Like we have proposed for so 
long as a solution in mitigating air tour sounds at Grand Canyon, NPOWG 
adopted strong language in support of quiet aircraft incentives as good 
public policy.
    Unfortunately, the Air Tour Management Plan process has yet to be 
implemented at any national park and we await publication of the final 
rules that will define what types of operations over National Parks 
will come under it. FAA and NPS have established the advisory group as 
Congress directed, the National Park Overflight Advisory Group (NPOAG), 
of which I am a member. In fact, I am leaving here immediately today to 
return to Grand Canyon to attend the second meeting of NPOAG being held 
tomorrow at which time I expect to learn what progress FAA and NPS have 
made in implementing the ATMP process.
    Throughout the nearly two decades I have spent representing the air 
tour industry, I have always felt that aerial sightseeing was an 
environmentally sensitive and appropriate manner for national park 
visitation. Air touring permits visitors to appreciate the unique 
reasons our national parks have been established by seeing often remote 
and/or inaccessible sites and features. Air tours are consistent with 
the NPS mandate to protect and preserve park resources impaired for 
future generations since air tour passengers impose no long lasting 
impact on, or demand for, park resources. Air tourists require no roads 
or trails, campsites or sanitation services, leave no garbage, pick no 
flowers and take no souvenirs. Although aircraft sound is the sole 
short-coming of air visitation, air tour sound is temporary and can be 
mitigated by choosing appropriate routes and altitudes so any 
associated sound impact is brief, if not virtually inaudible, for the 
vast majority of park ground visitors.
    That said, I recognize that there are times and places where air 
touring may not always be appropriate over national parks and public 
lands. I will continue to represent our industry's interests but with a 
keen appreciation for the concerns of others over how air tours can 
have adversely affects if not regulated properly. You have my word that 
I will continue to be committed to seeing through those objectives for 
Grand Canyon and as we apply the ATMP process to other national park 
locations.
    Thank you for your interest in our testimony. I am pleased to 
answer any questions you may have.

    Senator McCain. Thank you, Mr. Stephens. I have appreciated 
the dialogue and communication we have had over a number of 
years, and I thank you for your contribution to it.
    Mr. Robinson, welcome.

  STATEMENT OF TOM ROBINSON, DIRECTOR OF GOVERNMENT AFFAIRS, 
                       GRAND CANYON TRUST

    Mr. Robinson. Thank you, Senator McCain, Senator Ensign for 
the opportunity to testify on the status of the effort to 
restore the precious resource of natural quiet to a place that 
was once thought of as one of the quietest places on earth, the 
Grand Canyon. Before I actually read some of my testimony, I 
would like to speak directly to the issue of both quiet and 
quieter technology, because it is obviously, from what I am 
hearing, the most germane issue on the table right now, and 
maybe not surprisingly, maybe surprisingly, I want to start out 
by totally agreeing with what Alan just said. Alan flies what 
the FAA will probably at least certify as, if not the quietest 
plane in the air, at least the first step to what will 
eventually be the quietest plane in the air, and I believe that 
we do need to finish this quiet technology/quieter technology 
efficiency rulemaking process sooner rather than later.
    Quiet and efficient airplanes will not, in and of 
themselves, satisfy the noise problems, but they are key 
ingredients, because developing quiet technology is an 
expensive undertaking. Companies want regulatory certainty, 
obviously, before they make the financial investments in 
quieter helicopters and fixed wing aircraft. Some of these 
companies like Alan Brenda at Papillon have already started to 
do that.
    According to the May issue of Rotor and Wing Magazine, and 
here is a quote: ``The quiet and quieter helicopters is nothing 
if not easier and cheaper to promote than to achieve. Every new 
decibel down costs much more than the last. It is a very 
expensive proposition.'' I think that the agencies believe that 
there is probably more hope in efficiency than there is in 
quiet technology, and in fact Alan's planes probably represent 
the most efficient technology in the air. They seat 19 people, 
which is a lot of people and, in fact, they are quieter than 
other airplanes.
    I believe that particularly given the latest court 
decision, that eventually the numbers of flights will probably 
have to come down. These are hard decisions that will be made 
by the agencies. One of the least painful approaches would be 
if some of these companies are going to go out of business for 
financial reasons, shouldn't those operation caps be reverted 
to the Government, the FAA, the Park Service, whomever? That is 
a fairly painless approach.
    A big question I have is, should all companies be treated 
equally? Why should Alan receive the same noise cap 
restrictions that companies that have made no attempt to invest 
in technology receive? I do not believe he should.
    Another issue which is obviously very touchy is, not all 
companies are paying the fees that are mandated. This has been 
through litigation. I went through a report recently that shows 
there are 6 or 7 companies that are not paying their fees. Alan 
is not one of them, and I am wondering if perhaps, given how 
tight things are, and how precious caps are in the Grand 
Canyon, why should Alan be penalized the same as companies that 
are not paying their fees? I feel very strongly about that one.
    Getting back to the main body of my testimony, I would like 
to send three messages here to the FAA and the Park Service 
responsible for this process. 15 years is too long. Senator 
McCain already said that. We should not have to rely on 
litigation to move this process. The Federal appeals court has 
finally lost its patience, and they have made it very clear 
they will not tolerate further delay and, in fact, they will be 
looking very closely at even the science that will be 
developed, because they are very sensitive to political 
pressure that happens to agencies.
    This Committee will have to continue its oversight. I 
believe that that is particularly important, given the 
different missions of the two agencies involved, if we are to 
move beyond what I would call their very dysfunctional working 
relationship over the past 15 years.
    The last message is once again to the industry. The legal 
uncertainty I believe that has clouded this process is behind 
us now for the most part and I believe, as Alan does, that it 
is time to work together. Perhaps 3 or 4 years ago it was not 
so right, because partly people thought they could do a better 
job in court. That is the classic approach to mediation. If 
people think they are going to get a better deal outside of the 
table, they wait. I do not really believe the courts have much 
role anymore now.
    Speaking to a couple of key issues, the comprehensive noise 
management plan for substantial restoration of quiet in the 
Grand Canyon has not been released. This was to have been the 
core plan for which real improvements were to have been made, 
sequenced, and quantitatively assessed for achieving the final 
2008 restoration of natural quiet at the canyon. This plan has 
not yet been developed, and it will most likely require at 
least 2 years before such a plan reaches an operative stage.
    What is most outrageous is that the FAA has failed to input 
and aggregate for analysis any of the quarterly reports 
covering a \1/4\ million tour operations. The reports of 
individual operators have simply piled up in boxes. I believe 
there may be some progress now. I do not really know if the FAA 
can speak to that. There is no up-to-date record of trends and 
noise impacts for any day, season, or other period during the 
past 3 years. This lack of analysis guarantees the 2-year trial 
for the cap on operations cannot be reviewed. It guarantees the 
FAA cannot even evaluate flight congestion as promised in the 
rule. It is critical to computing the noise and percent 
substantially restored.
    The East End route date, the target date for the much-
delayed East End routes, which should have been done in 1997, 
is delayed. Much of the noise impact from air tours is 
experienced in the back country, on the rims, along the river 
at this end of the park. Further progress is clearly needed 
here.
    I would like to conclude with a quote from Arizona's 
largest newspaper and, in fact, this issue has had so much 
coverage since August with the court decision that I could have 
listed any one of many editorials. ``The canyon is anything but 
quiet. It is not even close to the tranquility that Congress 
envisioned for a meaningful experience for visitors. 15 years 
is much too long to wait for a quieter park and richer 
experience.'' This was written by the Arizona Republic, August 
20, 2002.
    I will agree that progress has been made, but not nearly as 
much as should have been made in 15 years.
    Thank you.
    [The prepared statement of Mr. Robinson follows:]

  Prepared Statement by Tom Robinson, Director of Government Affairs, 
                           Grand Canyon Trust
    Thank you Senator McCain, Senator Hollings, Senator Rockefeller, 
Senator Hutchison, and other Members of the Senate Commerce, Science, 
and Transportation Committee for the opportunity to testify on the 
status of the effort to restore the precious resource of natural quiet 
to a place that was once thought of as one of the quietest places on 
earth, the Grand Canyon.
    My testimony today is intended to send three messages. The first 
message is to the FAA and the NPS, which are responsible for restoring 
natural quiet to the Grand Canyon. Fifteen years is way too long. We 
should not have to rely on litigation to move this process forward. The 
Federal Appeals Court for the District of Columbia, in its landmark 
August opinion, has demonstrated that it, too, has lost patience with 
this process and will not tolerate further delay or any effort by the 
NPS and the FAA to weaken the planning process or the effort to include 
meaningful science in this process. The second message is to our 
elected representatives responsible for overseeing the NPS and the FAA. 
Your continued oversight will be necessary to ensure that these two 
agencies, with very different missions, finally move beyond their 
dysfunctional working relationship. Finally, the last message is to the 
air tour industry. The legal uncertainty that has clouded this process 
is now behind us and the parameters have been set. It is now time to 
work together. The FAA and the National Park Service need our help as 
they both search for creative solutions and at the same time face some 
very difficult decisions.
The Work Ahead of us
    On May 1, 2002, the FAA and the Park Service were to have completed 
a comprehensive noise management plan for the substantial restoration 
of natural quiet in the Grand Canyon. This plan was promised in the 
1996 Final Rule Preambles (from Federal Register, Dec. 31, 1996, Vol. 
61, No. 252 at pages 69328 and 69329). The rule states that . . .on May 
1, 2002, we are supposed to move clearly from the 5-year ``interim'' 
phase to a ``plan implementation'' . . . phase. This was to have been 
the core plan by which ``real improvements'' were to have been 
sequenced and quantitatively assessed for achieving the final April 
2008 restoration of natural quiet deadline for the Grand Canyon. 
Unfortunately, this plan has not yet been developed and it will most 
likely require at least two years before such a plan reaches an 
``operative'' stage.
    During the past three plus years, the FAA has failed to input, and 
aggregate for analysis, any of the quarterly reports covering a quarter 
million tour operations. The reports of individual operators have 
simply piled up in boxes in the FAA's Las Vegas FSDO office. Thus, the 
FAA has no up-to-date record of air tour trends and/or noise impacts 
for any day, season, or other period during the past three plus years. 
This lack of analysis guarantees that the two-year trial term for the 
cap on flight operations cannot be reviewed. It also guarantees that 
the FAA cannot evaluate ``flight congestion'' as promised in the rule, 
as a matter of safety. This data is absolutely critical to computing 
the noise and the ``percent substantially restored.''
    Another missing component is the noise model validation report and 
conclusion, which is based on sound monitoring studies at Grand Canyon 
National Park in the fall of 1999. Originally, this should have been 
prepared by spring 2000 to ground-truth the currently used model. 
However, the Park Service did not receive the final report from the 
contractor (HMMH) until June 5, 2002. Without this, there can be no 
determination about the noise levels. The release of this report will 
be a milestone in the scoring of substantial restoration.
    Late September of 2002 was the target date for the much-delayed 
``East End Routes'', which should have been developed in 1997. Most of 
the noise impact from air tours is experienced in the backcountry, on 
the rims, and along the river at this end of the park. Further progress 
is needed here if substantial restoration is to be achieved.
    Finally, there are still no ``quiet technology'' (noise efficiency) 
specifications and/or rule. Although quieter helicopters and airplanes 
will not, in themselves, solve the noise problem, they are key 
ingredients. Because developing quieter technology is an expensive 
undertaking, companies want regulatory certainty before they make the 
financial investment in quieter helicopters and fixed wing aircraft. 
According to the May issue of Rotor and Wing magazine, ``the quiet in 
quiet helicopters is nothing if not easier and cheaper to promote than 
to achieve . . . every new decibel down costs much more than the last . 
. . it's a very expensive proposition.''
    I would like to conclude my testimony with a quote from Arizona's 
largest newspaper, the Arizona Republic, August 20, 2002.

        ``The canyon is anything but quiet. It's not even close to the 
        tranquility that Congress envisioned for a meaningful 
        experience for visitors . . . Fifteen years is much too long to 
        wait for a quieter park and a richer experience.''

    Senator McCain. Thank you, Mr. Robinson, and thank you for 
all that the Grand Canyon Trust does for the Grand Canyon.
    Mr. Bosak.

   STATEMENT OF STEVEN BOSAK, ASSOCIATE DIRECTOR OF VISITOR 
              EXPERIENCE PROGRAMS, NATIONAL PARKS 
                    CONSERVATION ASSOCIATION

    Mr. Bosak. Mr. Chairman, thank you, Senator Ensign, thank 
you for the opportunity to present the views of the National 
Parks Conservation Association on the management of air tours 
in our national parks.
    My name is Steven Bosak. I am the associate director for 
visitor experience programs at NPCA. We are America's only 
nonprofit citizen organization dedicated solely to protecting, 
preserving, and enhancing the national park system. I have 
submitted written testimony which I wish to be entered into the 
record.
    I would like to thank you, Mr. Chairman, for your 
commitment to this important issue. The Committee has 
contributed greatly to our country's national park legacy by 
protecting the natural quiet in our national parks with past 
air tour overflight legislation, and I also wanted to say that 
I am honored to share this panel today with others who care 
deeply about our national parks. I think we all want to see 
progress here, and I do not dispute that.
    Congress elevated two basic principles when it passed the 
overflights act of 1987 and the Parks Air Tour Management Act 
of 2001, that the sounds of nature are among the inherent 
components of the scenery and the natural and historic objects 
and the wildlife that form the core of the National Parks 
Service's conservation mandate. Second, within units of the 
national park system, natural quiet and the opportunity to 
experience natural sounds shall be preserved unimpaired for the 
enjoyment of future generations. These two principles embody 
the most fundamental purposes of the National Park Service 
Organic Act, and they reflect the act's enduring importance to 
the world today.
    Taken together, the Overflights and Air Tour Management 
Acts require the Park Service to exercise some control with the 
assistance of FAA over the commercial air tours that fly over 
the national parks. Both acts ordered a high level of agency 
cooperation. Unfortunately, that cooperation seems to have been 
difficult for both agencies.
    You stated earlier, Mr. Chairman, that there has been much 
delay in the implementation of both air tour laws. We are very 
concerned that it has been nearly 2\1/2\ years since the 
passage of the Air Tour Management Act, and that there is no 
final rule out that defines the air space over national parks 
regulated by that act. I understand that the FAA says that now 
that rule is under final review. We would hope the Subcommittee 
demands a commitment from the FAA on the release date as well 
as an explanation, a better explanation for this prolonged 
delay.
    As you said, Mr. Chairman, many parties have contributed to 
the delay in this issue, but the conservation community does 
believe that FAA's reluctance to follow the intent of these 
laws and apply appropriate resources has been a major stumbling 
block. Our past involvement in lawsuits was to ensure that the 
intent of Congress was followed.
    We are particularly concerned about the delayed Air Tour 
Management Act rule because we see air tour operations 
increasing over other national parks. As you has mentioned 
earlier, parks such as Yellowstone and Grand Teton are now 
facing new air tour operations. Air tour overflights continue 
to be a problem over parks such as Hawaii Volcanoes, Glacier in 
Montana, and Acadia National Park in Maine. It is a nationwide 
problem.
    The parks Air Tour Management Act sought to avoid the 
unmanaged growth of air tour industry by forbidding the start 
of new operations over any park until the park had completed an 
air tour management plan, but parks cannot start air tour 
management plans until that air space rule is out.
    I wish to submit to the record some written testimony from 
citizens near some of the national parks that are affected by 
this issue. Their comments attest to the frustration felt in 
local communities by those seeking to reduce the impact of air 
tours on park visitors and park neighbors. To prevent further 
delays in the implementation of both acts, Congress must keep a 
close eye on both agencies with a keen eye on which agency 
determines the standards and measurements used to assess air 
tour impacts on our parks. This issue has dogged the entire 
process. The recent decision that Mr. Robinson referred to 
earlier by the U.S. Court of Appeals was clear. FAA must give 
deference to the Park Service on the issue of natural quiet 
standards.
    Mr. Chairman and Senator Ensign, park visitors want to hear 
the substantial restoration of natural quiet in the canyon by 
2008. They want to see the National Parks Air Tour Management 
Act implemented in a timely fashion, and NPCA would like to see 
the air tour industry receive genuine incentives so they can 
see a future in cooperating fully in a program that enables 
their clients to enjoy the views from above while providing the 
national park visitors on the ground the opportunity to 
experience the undisturbed natural sounds in the parks.
    We respectfully ask the Subcommittee to ensure that neither 
agency repeat the mistakes of the past. They must adjust their 
priorities and resources so that we can deal proactively with 
air tour management nationwide as Congress intended. I also ask 
the Subcommittee to consider in my written testimony a number 
of tasks and goals for the agencies that we feel are critical 
to breaking this cycle of delay.
    In conclusion, I should emphasize that NPCA is not opposed 
to air tours over national parks per se. We do, however, feel 
that air tours over some park units are inappropriate, and we 
will participate in the air tour management process to express 
those views. It is critical the FAA and National Park Service 
fulfill the will of Congress by moving quickly on the 
implementation of these laws and by managing these issues 
proactively.
    The FAA's role should be ensuring safety, the Park 
Service's role should be determining the impact on national 
park visitors and values. This is the intent of both laws.
    Thank you for allowing me the opportunity to share our 
views.
    [The prepared statement of Mr. Bosak follows:]

   Prepared Statement of Steven Bosak, Associate Director of Visitor 
      Experience Programs, National Parks Conservation Association
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to present the views of the National Parks Conservation 
Association (NPCA) on the management of tour aircraft flying over the 
national parks and the delay in implementing both the National Parks 
Overflight Act of 1987 (Pub.L. 100-91) and the National Parks Air Tour 
Management Act of 2000 (Pub.L. 106-181). My name is Steven Bosak. I am 
the Associate Director of Visitor Experience programs for NPCA, 
America's only nonprofit citizen organization dedicated solely to 
protecting, preserving and enhancing the National Park System.
    I want to thank the Chairman and Senator McCain for your commitment 
to this important issue. This Subcommittee has contributed greatly to 
our country's national park legacy by protecting the natural quiet and 
natural soundscapes in our national parks with past air tour overflight 
legislation.
Significance of Air Tour Legislation to National Parks
    Congress elevated two basic principles when it passed the Parks 
Overflight Act of 1987 and the Parks Air Tour Management Act of 2000. 
First: The sounds of nature are among the inherent components of the 
``scenery and the natural and the historic and the wild life therein,'' 
which form the core of the National Park Service's conservation 
mandate. Second: Within units of the National Park System, natural 
quiet--the opportunity to experience natural sounds--shall be preserved 
``unimpaired for the enjoyment of future generations.'' These two 
principles embody the most fundamental purposes of the National Park 
Service Organic Act of 1916, and reflect the Act's enduring importance 
for the world today. Taken together, these two Acts both enable and 
require the Park Service to exercise some regulatory authority, with 
the assistance of the Federal Aviation Administration, over the 
commercial air tours that fly over national parks. Both Acts broke new 
ground in ordering a high level of agency cooperation. Unfortunately, 
this cooperation has been difficult for both agencies, resulting in 
delays in implementing the intent of Congress.
Cause and Impacts of Delay
    As this Committee is well aware, it has been more than 15 years 
since the passage of the Parks Overflight Act, which specifically 
directed the Park Service and FAA to provide for the ``substantial 
restoration of natural quiet'' in the Grand Canyon. Yet the 
excruciatingly slow pace at which the Overflights Act and the Air Tour 
Management Act are being implemented contributes to the frustration and 
uncertainty for park visitors and air tour operators alike. While the 
Park Service bears some blame for the lack of progress, it has been our 
experience that the FAA has been reluctant to follow the intent of 
these laws and apply the appropriate resources to complete rulemakings 
in a timely and efficient manner.
    It has been two and a half years since Congress passed the Air Tour 
Management Act, but the FAA has yet to release the final rule that 
would complete the definition of regulated airspace over national 
parks. This is a non-controversial rule that mostly enacts language 
already recommended by the National Parks Overflight Working Group, a 
federally convened advisory group made up of representatives from the 
air tour industry, the conservation community, Native American tribal 
governments, and the Park Service and FAA. NPCA has submitted comments 
to the FAA in support of the draft language (U.S. DOT Docket No. FAA-
2001-8690).
    Our concern over the delayed rule is intensified by what we have 
observed around the country over the past few years: That air tour 
operations over national parks are increasing, and in some cases new 
air tour operations have sprung up over parks where no air tours 
previously operated. Parks such as Yellowstone and Grand Teton are now 
facing new air tour operations. Air tour overflights continue to be a 
problem over parks such as Hawaii Volcanoes, Bryce Canyon in Utah, and 
Glacier National Park in Montana. These parks are all on the Park 
Service's priority list of units requiring air tour management plans.
    An NPCA survey of national park superintendents in 1998 found that 
55 park units reported adverse impacts from air tour overflights. That 
figure represents an increase in park air tour overflights from surveys 
we conducted 1994 and 1996.\1\ As you recall, the Parks Air Tour 
Management Act sought to avoid the unmanaged growth of the air tour 
industry over parks and specifically forbade the start of new 
operations over any park until the park had completed an air tour 
management plan. The FAA, however, will not commence the air tour 
management planning process in any park until the delayed ``airspace'' 
rule is finalized.
---------------------------------------------------------------------------
    \1\ A National Park Service survey of its units for its 1994 report 
to Congress of the Effects of Aircraft Overflights on the National Park 
System found that 42 park units experienced commercial air tour 
activity.
---------------------------------------------------------------------------
    Attached to my testimony is additional testimony I wish to submit 
for the record on behalf of citizens living near some of these affected 
national parks. These comments I am submitting attest to the 
frustration felt in local communities by those who are seeking to 
reduce the impact of air tour overflights on park visitors and park 
neighbors.
Meeting Congressional Intent
    To prevent further delays in the implementation of both Acts, 
Congress must keep a close watch on both agencies, with a keen eye on 
which agency determines the standards and measurements used to assess 
air tour noise impacts on the parks. The intent of Congress seemed 
clear enough. In Section 3(b)(1) and (b)(2) of P.L. 100-91, Congress 
required FAA to `issue a final plan for management of air traffic in 
the air space above the Grand Canyon that implements the 
recommendations of the Secretary (of Interior) without change unless 
FAA determines that those recommendations would adversely affect 
aviation safety.' But still the question regarding which agency 
determines impacts has dogged the entire process. The conservation 
community took the issue to court to provide clarification. The recent 
decision in U.S. Air Tour Association v. FAA by the U.S. Court of 
Appeals for the D.C. Circuit should provide clarity to both agencies 
and motivation for finishing the job expeditiously.
    That decision directed the FAA to give deference to the Park 
Service as it reconsiders its position on the standard for assessing 
restoration of natural quiet and the measurement of aviation noise in 
the Grand Canyon. Among other things, the court called upon the 
agencies to:

  <bullet>  Apply the ``Peak Day'' standard in place of the ``Average 
        Day'' standard for assessing progress towards substantial 
        restoration of natural quiet in the Grand Canyon. Judge Garland 
        noted in the court decision that ``People do not visit the Park 
        on `average' days, nor do they stay long enough to benefit from 
        averaging noise over an entire year. For the typical visitor, 
        who visits the Grand Canyon for just a few days during the peak 
        summer season, the fact that the Park is quiet `on average' is 
        cold comfort.''

  <bullet>  Measure all aviation noise sources above the Grand Canyon 
        when assessing progress towards substantial restoration of 
        natural quiet.

    Park visitors want to see progress at the Grand Canyon; we want the 
Park Service to realize the goal of ``substantial restoration of 
natural quiet'' to the Canyon by 2008. We also want to see the air tour 
industry receive genuine incentives so that they can see a future in 
cooperating fully in a program that enables their clients to enjoy the 
views from above while providing the national park visitor on the 
ground the opportunity to experience the undisturbed natural sounds of 
the Canyon. Those incentives, though--be they in the form of so-called 
``quiet technology'' or ``noise efficiency'' regulations--must be fair 
and reasonable not just to air tour operators, but also to the national 
park visitors who visit the front and backcountry of national parks 
with the expectation of experiencing undisturbed natural sounds.
    NPCA and its members also want to see forward movement on the 
implementation of the National Parks Air Tour Management Act. We 
respectfully ask the Committee to help ensure that neither agency 
repeats the mistakes of the past. Air tour management must receive the 
appropriate level of priority and allocation of resources so that we 
can deal proactively with air tour management nationwide, as Congress 
intended. We respectfully ask the Subcommittee to help ensure that the 
following goals are met to assist in the preservation of natural quiet 
in our national parks and restoration of natural quiet to the Grand 
Canyon:

  <bullet>  Release of the National Parks Air Tour Management final 
        rule: The FAA must release this rule as soon as possible; a 
        two-year delay is unacceptable. The rule will define the air 
        space over parks regulated by the law and will allow the 
        agencies to commence the air tour management planning processes 
        at parks impacted by air tours. The Committee should demand 
        explanations from both agencies for the cause of the delay.

  <bullet>  Recognize the Park Service's authority to determine air 
        tour impacts: During the development of air tour management 
        plans and noise management plans, the Park Service must be the 
        agency that determines air tour impacts to natural quiet in 
        national parks and designates the desired solutions for 
        eliminating or mitigating unwanted air tour impacts. The FAA 
        must focus on ensuring the safety of air tour operations over 
        national parks. The Court of Appeals has ruled on this point 
        and both agencies should comply with their ruling.

  <bullet>  Develop a Noise Management Plan for Grand Canyon National 
        Park: The Park Service, with FAA assistance, must develop a 
        Noise Management Plan for the Grand Canyon National Park. Due 
        date was May 1, 2002.

  <bullet>  Analyze and release Grand Canyon air tour operations data: 
        The FAA must analyze and release the Grand Canyon air tour 
        operations data that it has collected since 1998. This data 
        will enable NPS and FAA to gain a better understanding of the 
        current air tour industry behavior and take appropriate 
        management and noise mitigation actions.

  <bullet>  Issue a Quiet Technology Rule: The FAA and the NPS must 
        develop and release the ``Quiet aircraft technology and noise 
        efficiency'' final rule that would give air tour operators 
        incentives for using more quiet aircraft over national parks; 
        this rule could include incentives for using higher capacity 
        aircraft for fewer flights.

  <bullet>  Release of noise model validation report and conclusion: 
        This report would provide feedback on the effectiveness of the 
        current noise impact model and help the agencies determine 
        progress toward ``substantial restoration of natural quiet''. 
        The due date passed in spring of 2000. NPS received the final 
        report from Contractor (HMMH) on June 5, 2002 but has not 
        released its conclusions to the public.

  <bullet>  Collect all current and past due air tour use fees at Grand 
        Canyon and other air tour use fee parks: Some air tour 
        companies have not been paying the air tour passenger fees to 
        NPS as required by law. NPS is entitled to these revenues. 
        Those air tour operators who are unwilling to pay the 
        appropriate fees to NPS should be denied the privilege of 
        flying over the parks requiring air tour fees. The Park Service 
        does not allow park visitors to enter parks requiring gate fees 
        without payment; the same standard should apply to air tour 
        passengers if the operators wish their clients to be considered 
        ``park visitors.''

  <bullet>  Retire the allocations over the Grand Canyon for air tour 
        operators who cease tour operations: The Park Service and FAA 
        can pick the ``low hanging fruit'' in restoring natural quiet 
        by retiring allocations of air tour operators who go out of 
        business.

  <bullet>  Substantially restore natural quiet at Grand Canyon 
        National Park: The Park Service and the FAA should meet the 
        April 22, 2008 target date committed to by both agencies in the 
        Final Rule preamble of the FAA on Dec. 31, 1996. The 
        ``substantial restoration of natural quiet'' must meet the Park 
        Service definition that says ``50 percent or more of the park 
        achieve `natural quiet' (i.e. no aircraft audible) for 75-100 
        percent of the day.'' Unless the definite steps as outlined 
        above are finalized, this target cannot be met.

    In conclusion, I should emphasize that NPCA is not opposed to air 
tours over national parks per se; we do, however, feel that air tours 
over some park units are inappropriate. It is critical that the FAA and 
NPS fulfill the will of Congress by moving quickly on implementation 
and by managing these issues proactively. The FAA's role should be to 
ensure the safety of air tour passengers over parks and of other 
aircraft in the vicinity. The National Park Service must determine what 
impacts commercial air tours have on national park visitors and values. 
This was the intent of both laws.

    Thank you again for allowing me the opportunity to share NPCA's 
views on this issue.

    Senator McCain. Thank you very much, and your full text, as 
well as the comments you wish included in the record, will be 
made a part of the record without objection.
    Mr. Stephens, will the air tour operators appeal the recent 
Federal court decision affecting the FAA's regulations 
governing air tour overflights in the Grand Canyon?
    Mr. Stephens. The USATA, the Air Tour Association, is not a 
party to any appeal. Grand Canyon Airlines is not a party to 
any appeal. I believe there may be one operator at Grand Canyon 
that wishes to appeal that decision.
    Senator McCain. Mr. Robinson and Mr. Bosak, there has been 
conversation about the use of alternative dispute resolution as 
a way to end some of the difficulties that we face. How do you 
feel about that proposal? Mr. Robinson.
    Mr. Robinson. I have actually spoken to Mr. Hoffman about 
that, and I have indicated that we would be interested in such 
a process. It should not be a process intended to somehow 
short-circuit or undermine what the agencies are responsible 
for doing and, in fact, what the court has very much reaffirmed 
and affirmed, but if nothing else it would be a way to show the 
agencies that people can work together, because these two 
agencies have not done very well over the last 15 years.
    I am hoping that after this hearing that will change, but I 
think given the right people and the right parameters and 
issues, I think progress could be made. As I said before, a 
couple of years ago may not have been the best time, partly 
because the courts were involved, and I am actually sorry to 
hear there is an appeal, but people are entitled to do that.
    Mr. Bosak. Mr. Chairman, Mr. Hoffman has spoken to me also 
about ADR for the Grand Canyon issue. We are not opposed to it. 
We would like to see exactly what it would entail. We do feel 
that the court decision that was made recently makes it pretty 
clear what the agencies need to do, and it is a question of 
resources and priorities, so we welcome the ADR opportunity if 
there are certain parameters that bracket the discussion that 
goes on there, making sure that the agencies comply with the 
court-ordered mandates and also with the intent of Congress.
    Senator McCain. Mr. Bosak, the air tour operators believe 
no matter how quiet an aircraft may be, any air tour that is 
audible will not satisfy the Park Service or environmental 
critics of the industry. What is your reaction to that 
allegation?
    Mr. Bosak. I do not think that is true. We are supportive 
of the quiet technology regulations. We want to make sure they 
are fair to the air tour industry and to the park visitors on 
the ground. We certainly do not think that it is the cure-all 
for this situation. We believe there still may need to be some 
caps of some sort on what, there needs to be some sort of route 
structure to ensure that certain areas of the park remain quiet 
all the time, but we are open to that. We are open to quiet 
technology, and we are willing to be involved in discussions 
about it.
    Senator McCain. Well, let me just suggest to you on the 
alternative dispute resolution, I think everybody would go to 
the meeting recognizing that you are bound by court decisions. 
I mean, that is to state the obvious, so why not say, look, we 
will sit down and talk to you. Clearly, we are not going to be 
able to overturn court decisions. There is no possible way to 
do that, but to set, quote, ``parameters,'' close quote, for 
discussions, it seems to me it might have a chilling effect. 
And this is to sit down and discuss things, it is not to commit 
yourself to a resolution, and so I hope that you would have a 
position that you would be willing to sit down and discuss 
these and every issue, recognizing fully that nobody is going 
to be able to reach an agreement that is in violation of the 
judicial process.
    I hope that since we have been waiting 15 years at least, 
it cannot hurt to sit down and have a conversation amongst all 
interested parties without saying, we are not going to talk 
about this, we are not going to talk about that. Because then I 
think that does not have a beneficial effect on the atmosphere, 
because I do not think any of your constituents would expect 
you to agree to anything that is in violation or contravention 
to the gains, and there were significant gains you made in this 
court decision.
    That is a little gratuitous and probably unneeded advice in 
this process.
    Mr. Stephens. Mr. Chairman, the court really came across 
with a ruling which really is going to send us all back to the 
drawing boards. I do not think anybody in the Government and--I 
do not know how to deal on the air tour side with the idea of 
the court overturning the concept of average user day, which is 
the whole basis of the regulatory scheme at Grand Canyon that 
has been enacted. The court has thrown out how we measure 
whether or not we have restored natural quiet by overturning 
average user day. Thus I would like to sit down and hear the 
views of everybody, including the Government, and I would hope 
they would like to hear our views, because I am not sure how we 
get there. Now that the Court has issued an opinion I know I 
can think of a thousand ways we could go down a regulatory 
process that would be really counterproductive. We have to deal 
with this one way or another. The court has given us a mandate, 
and I agree we have to deal with it promptly. But I would like 
to deal with it in an open forum where we can hear ideas on 
what alternatives there are to coming up with a system of 
measuring natural quiet that fits with the court decision. Thus 
we believe an alternative process to more rulemaking is now 
appropriate.
    Mr. Robinson. May I respond to that?
    Senator McCain. Sure.
    Mr. Robinson. I referred to this before. One of the tough 
issues here, and it is going to be tough for even people at the 
table to come to grips with, is that very difficult decisions 
are going to have to be made. Now that the court has said that 
averaging cannot be done, we have gone way back to which 
percentage of the park, way back in terms of percentage, is 
supposedly restored to natural quiet. That means that when you 
look around the landscape to figure out how do you get there, 
clearly quiet and quieter technology is one way. Another way is 
possibly to eliminate one of the East End routes. The question 
is, is that duplicative?
    Another way is, and I mentioned this before, and this is a 
really tough one that I think this Committee and the Government 
is going to have to look at is, are all operators equal? I 
cannot make that decision. If I were a dictator right now, I 
would say, Alan gets more caps than other people because he is 
flying much quieter technology, much more efficient.
    I would say that the folks that have not been paying fees 
for quite some time, if ever, should not be allowed to fly. 
That immediately increases the percentage of restoration. Why 
do they get to fly if they have basically snubbed their nose at 
the laws that have already been through the court system?
    There are ways to make difficult decisions. I am not a 
dictator. I can make suggestions at the table, but I just do 
not think it is fair for someone like Alan to be brought down 
by some of his colleagues that are contributing noise but not 
contributing as good public stewards and citizens.
    Senator McCain. Well, thank you. On that subject I would 
just make two points. One of the reasons why I have discussed 
the issue of quiet technology, not because I believe that it is 
the answer. Clearly, it is not. I think it is one of many ways 
to address this problem, but it has been our impression, either 
rightly or wrongly, that that aspect has been neglected to a 
large degree when clearly we wrote that in the law as to one of 
the factors that needed to be considered.
    And to take your position one step further, it seems to me 
the free enterprise system indicates that if you want people to 
spend money, you have to have some kind of incentive for them 
to do so. I would hope that perhaps that would be part of the 
discussion in alternative dispute resolution. I cannot expect a 
business person to invest--how much does it cost you to quiet 
engines of one of your large aircraft, Mr. Stephens?
    Mr. Stephens. In total investment we have about $1.2 
million in each one of our Vistaliner airplanes. We have six, 
so we have $7 million plus invested in our aircraft, and about 
a million of that is in the quiet technology. That is just on 
the Grand Canyon side. On our Twin Otter side, where we produce 
Vistaliners that we lease to companies at Grand Canyon and at 
other locations and we have about 25 Visaliners, so we have 
invested quite a bit of money into quiet technology with the 
belief that it was the solution.
    Senator McCain. And I am sure if one of the small operators 
was sitting at the table next to Mr. Bosak he would say, I 
cannot afford $1.2 million per aircraft, I simply cannot do 
that. And I am not without sympathy for that situation, but it 
seems to me--and I am not speaking for Mr. Stephens or any 
other air tour company, but it seems to me they should have 
some incentive to acquire this technology, and it is a small 
item, Mr. Robinson, but I think there is a difference between 
quiet technology of a helicopter and quiet technology of a 
fixed wing aircraft.
    We look at the stage 3 aircraft that now fly into National 
Airport. There is a huge difference--and there is going to be a 
stage 4 aircraft, and I am only talking about commercial 
airliners. There will be a stage 4. They are on the drawing 
board already. But helicopter, quieting a helicopter, I think 
the state of the art is a lot further along, to say the least. 
It is a minor point, but I thought I would throw that in.
    Mr. Bosak, you have been quiet. What do you want to add to 
this conversation?
    Mr. Bosak. I would say I concur. As I said earlier in my 
testimony, we would like to see the quiet technology 
regulations move ahead, and I completely understand that 
businesses want some sort of certainty when they are trying to 
plan into the future, and it must be very difficult to exist 
under the regulatory regime that we have in place right now.
    Mr. Robinson. Senator McCain, one other point. If there are 
not penalties along with incentives, then we keep moving the 
target away. If we give the folks flying quieter airplanes and 
helicopters goodies, then we have actually kept the levels up 
high. There will also have to be penalties, and those are the 
ones--it is actually easier to give--it should be easier to 
give Alan an incentive. It has not been done yet. It is harder 
to penalize someone.
    Senator McCain. I think that is a very important point. The 
free enterprise system not only rewards but sometimes it 
punishes as well, as we are finding out in recent days.
    Finally, one of the reasons why I focused more of the 
attention on this hearing, Mr. Bosak, on the Grand Canyon 
overflight, if we cannot get this issue moved forward, then it 
seems to me it is going to be extremely difficult to move the 
other parks forward, and I had always hoped that this would 
serve as a model of what to do.
    Clearly, it is serving as a model of what not to do, but 
there is a whole lot of lessons learned here that I hope do not 
have to be relearned as we address Yosemite, Yellowstone, all 
of the other national parks that need varying degrees of 
attention, and it is disturbing to hear that since the law was 
passed, that there is increased activity over the parks, and if 
you would submit for the record the information you have about 
increased air tour activity over the parks since the passage of 
the parks overflight act, I would appreciate that.
    Mr. Bosak. Certainly. *
---------------------------------------------------------------------------
    * The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Senator McCain. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman.
    Mr. Robinson, you mentioned something that is very 
important. We talk about incentives, we talk about punishment; 
we have done just the opposite. We have now punished good 
behavior. Now, Mr. Stephens--and it takes you back, if you 
think about the other air tour operator who maybe looks at Mr. 
Stephens and says, I am not going to do that because I get 
punished.
    In other words, I will cut my own flights down and invest 
all this technology, and then they cut me down further, 
because--it reminds me of when we were enacting welfare reform, 
and that was one of the things that we had to be careful of, 
not to punish the States that had already enacted a lot of the 
reforms that we were asking them to enact. In other words, we 
did not cut their money back because they had already enacted 
those reforms.
    In other words, we did not want to punish good behavior, 
but also we have to be careful why some of these people did not 
want to take the risk, because they probably looked at people 
like Mr. Stephens and said, you know, there is no way I am 
going to take that risk.
    So we have got to try to bring everybody in to meet the 
goals that we are trying to meet, and you know, there always is 
a balance between punishment and incentive. You know, positive 
always is a better way to get people to do things, as long as 
you have the threat of the negative happening.
    Mr. Stephens, or any of you could answer this, maybe, and 
it is a little different than the question Senator McCain just 
asked, but hopefully we have the statistics at least at Grand 
Canyon about this. Do we know, compared to, say, the last 5 
years, 10 years ago, 15 years ago the number--Mr. Stephens, you 
quoted the number of your flights, but do we know the total 
number of flights that are going over, helicopter flights and 
fixed wing?
    Mr. Stephens. Let me see if I can answer that, Senator. I 
appreciate the question. I believe the number used at the peak 
was about 90,000 air tour flights over Grand Canyon a year. 
Since then, several things have happened. One is, because of 
the economics there has been a real shift away from small 
airplanes to the larger ones. Where there were a lot of five, 
six and seven seat Cessnas flown, today operators fly aircraft 
like the Beech 99s that seat 15, 44-seat Folker F-27s, and of 
course 19 seat Vitaliners. The bigger the aircraft, the fewer 
number of flights required.
    The second thing, there has been massive consolidation and 
failure within the industry. I can name, back when we were 
dealing this 15, 16 years ago there were about 20 fixed-wing 
air tour operators flying at Grand Canyon. Today I believe 
there are 7. All the rest of them have gone out of business or 
have consolidated. Some failures came about because of the 
economics of this business, and then of course 9/11. If you 
look at the traffic statistics or passengers boarded, and this 
is probably the most telling statistic, the Grand Canyon air 
tour industry carried 800,000 passengers annually.
    Structurally that market changed in the year 2000. The cost 
of air tours became pretty expensive, so we lost about 100,000 
of our passengers a year to buses, so that reduced the number 
of passengers to 700,000 in the year 2000. This year, we will 
be lucky to hit 400,000 passengers. Since 9/11 foreign visitors 
are simply not coming to the United States in any numbers like 
they were, and that decline really rocked the air tour 
industry. The FAA to my knowledge has never released any air 
tour flight statistics beyond the original 90,000 air tour 
flight at the peak.
    But these changes in the industry have reduced the number 
of flights today, tour flights over Grand Canyon to probably 
under 35,000, perhaps 40,000 from the peak of 90,000. It is 
hard to tell, because there has been an increase in helicopter 
flights, and by definition they are a little smaller, and so 
they are probably going to fly more flights for the same number 
of people than flown with typical larger air tour airplane.
    And with the consolidation of the industry, where companies 
have outright failed, there has not been a reallocation of 
those air tour flights to remaining air tour companies. As you 
just asked, I would like to see the true numbers, because I 
think if we do sit down in a negotiation over what is happening 
at Grand Canyon, we have to have the current numbers to plug 
into the noise model to determine whether or not we have gotten 
to that definition of natural quiet . . . 50 percent of the 
park 75 percent of the time.
    Senator Ensign. Do either of the rest of you know the 
numbers?
    Mr. Bosak. No. That is the data the FAA has which will help 
us validate the model and also determine how many overflights 
are going over the park in the last couple of years.
    Senator Ensign. It would seem to make sense, because total 
number of passengers really does not work, because you may be 
carrying 30 percent loads instead of 90 percent loads, or 
whatever, and so you may have the same amount of air flights, 
depending upon the percentage that are on the airplanes.
    Mr. Chairman, I think the message from this hearing, and 
hopefully everybody concerned as we go forward, is that we all 
want to get something done. I mean, the air tour operators 
obviously need to get it done for their business survivability.
    Mr. Robinson and Mr. Bosak, your organizations want to get 
things done because you want to try to meet the goals along 
with the National Park Service, and I think that if we do this 
with some balance, I think that we can achieve the goals that 
have been set out by the act, and hopefully set a model that we 
learn from, and when we finalize this thing we set a model that 
we can use for the other parks.
    The last comment I would make, Mr. Chairman, is that when 
you are on the ground and you are enjoying natural quiet--and I 
totally understand why people want that experience. I ride my 
bike all the time to up around Red Rock Canyon Conservation 
Area. It is an absolutely beautiful area, and I certainly would 
not want flights going on all the time up there. It is a part 
of being just on a road bike, just the natural quiet that you 
just see the natural beauty and experience it, and I ride 
virtually every Saturday morning, and I love that aspect of it, 
so I understand why people want that.
    But I also--I am healthy. I am able to do those kinds of 
things. I love to go up there and hike, and things like that. 
Well, the same thing, there has got to be a place for people 
that can do those things, where they can enjoy that, but for 
the senior citizen, or the disabled person, or whatever, there 
has got to be a way for them to enjoy the park as well, and 
that is one of the reasons for these air tour operators, that 
is where the balance has to come in, is we have to have those 
places for the people that can enjoy the truly natural areas, 
or the truly natural experience in those parks, as Teddy 
Roosevelt set out.
    But recognizing that my 82-year-old grandmother, that there 
is no way she could do the hiking and things like that to enjoy 
the natural quiet, she has got to have some other way to really 
experience that, and I know that you cannot do some of that 
through the ground, but the air tour gives quite an experience 
as well, and we have to recognize that.
    So thank you, Mr. Chairman.
    Senator McCain. Thank you very much, Senator Ensign. Is 
there any closing comments that the witnesses would like to 
make? Beginning with you, Mr. Stephens.
    Mr. Stephens. Thank you for having this hearing. I am very 
pleased that my colleagues here and the Government witnesses 
have all indicated an interest in bringing this to a close 
through some type of a desperate negotiation.
    I can tell Grand Canyon Airlines will be there. We have no 
preconceived notions. We want to preserve a quality air tour 
that we can sell to the public to take care of the people that 
want to see the Grand Canyon that do not necessarily want to do 
it by river rafting or ground visitation. As I have said in our 
testimony, we understand, and believe me, we understand the 
goal of making sure that our aircraft operations are as 
inaudible as possible so as to have the least impact number of 
people. The fastest way to get there is not the court. It is to 
get on with desperate negotiation.
    Senator McCain. Thank you. Mr. Robinson.
    Mr. Robinson. I just want to thank you so much for holding 
this hearing. I am afraid you may have created a love fest.
    Senator McCain. Let us hope it lasts. Mr. Bosak.
    Mr. Bosak. I would like to thank you also, Mr. Chairman, 
for holding this hearing, and I wanted to say that we are open 
to new solutions on this problem, going out to the Grand Canyon 
actually this afternoon to participate in the National Parks 
Advisory Group meeting for overflights, and look forward to 
meeting some of the air tour operators and other 
conservationists working on this, so I think the dialogue is 
going to begin pretty soon.
    Senator McCain. Well, I thank you, and I thank all three of 
you for your involvement, and Mr. Stephens, I do want to say 
that I believe you all have come a long way, and I appreciate 
that, and Mr. Robinson, I want to thank you for all that the 
Grand Canyon Trust does for the Grand Canyon. I cannot state 
how much I admire and appreciate all of the many contributions. 
This is one of 100 that you have been involved in.
    Mr. Bosak, we look forward to working with you. We find 
your expertise and knowledge very important, and let us hope we 
do not have to have another hearing like this ever again.
    Thank you. This hearing is adjourned.
    [Whereupon, at 11:00 a.m., the Committee adjourned.]
                            A P P E N D I X

                    National Parks Conservation Association
          Protecting Parks for Future Generations, October 13, 2002
Hon. John McCain,
Ranking Member,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Senator McCain:

    Thank you again for chairing the October 3rd Aviation Subcommittee 
oversight hearing on air tours and national parks. I was honored to 
testify in front of the subcommittee on behalf of the National Parks 
Conservation Association (NPCA). My organization and its members 
appreciate you giving this issue the attention it deserves. Please find 
attached to this letter written testimony from other conservation 
groups regarding problems with new and existing air tour operations 
over national parks.
    As I stated during my testimony, NPCA shares your concern regarding 
the lack of progress made on the implementation of the National Parks 
Overflight Act of 1987 and the delayed FAA rulemaking for the National 
Parks Air Tour Management Act of 2000. We are open to exploring new 
ways to move forward on air tour regulations at the Grand Canyon 
National Park and will communicate that to Mr. Hoffman at the 
Department of Interior. We are also hopeful that FAA will release the 
Air Tour Management Act rulemaking as soon as possible.
    After the hearing last Thursday, I traveled to the Grand Canyon to 
participate in a meeting of the National Parks Overflights Advisory 
Group, an advisory group called for by Congress in the recent Air Tour 
Management Act. I was impressed with the work the FAA and Park Service 
have done to prepare for the development of air tour management plans 
at parks. It became apparent at that meeting, however, that FAA and the 
Park Service still have not settled the fundamental issue of which 
agency determines the impacts of air tours on park visitors and 
resources during the development of park air tour management plans. The 
National Parks Air Tour Management Act and its legislative history 
indicate that the Park Service should determine impacts and the FAA 
should use the Park Service's information and expertise when developing 
air tour management plans in cooperation with the Park Service.
    The agencies must settle this ``determination of impacts'' issue 
before completing an interagency Memorandum of Understanding, (MOU). 
That MOU will create the foundation that guides the agencies as they 
cooperate on the implementation of the Air Tour Management Act. NPCA 
believes some guidance from the Aviation subcommittee might help both 
agencies resolve this issue and avoid the mistakes that have impeded 
progress in the implementation of the Overflights Act of 1987.
    We are also concerned that the inter-agency cooperation required by 
the Air Tour Management Act might be compromised by the great imbalance 
of personnel and resources the agencies are bringing to the process. If 
the Park Service is to have a real opportunity to fulfill its 
responsibilities under the Act, it clearly needs to dedicate more 
resources to the task.
    Should you or your staff have any questions regarding our position, 
please feel free to contact me.

        Sincerely,
                                              Steven Bosak,
                    Associate Director, Visitor Experience Programs
                                 ______
                                 
 Prepared Statement of Carl A. Schneebeck, Program Associate, Jackson 
                       Hole Conservation Alliance
    This statement is submitted for inclusion in the record of the 
oversight hearing on overflights of national parks. The Jackson Hole 
Conservation Alliance (JHCA) is dedicated to responsible land 
stewardship in Jackson Hole, Wyoming, to ensure that human activities 
are in harmony with the area's irreplaceable wildlife, scenic and other 
natural resources. JHCA was founded in 1979 and has more than 1800 
members nationwide.
    This community is nearly unanimous in its opposition to commercial 
air tours over Grand Teton and Yellowstone National Parks. JHCA has 
been involved with the issue of commercial air tours over Jackson Hole, 
including portions of Grand Teton and Yellowstone National Parks, since 
they were first proposed in May 2000. JHCA has attended airport board 
meetings, analyzed documents, submitted comments, and proposed an 
amendment to the Teton County land development regulations prohibiting 
commercial air tours from operating out of private helicopter landing 
facilities in the county. Thanks to the support of an array of economic 
and political segments of the community, the local regulations were 
enacted last year. In addition, JHCA collected over 6,000 signatures 
from residents and visitors opposing commercial air tours over Jackson 
Hole.
Threats Emerging
    In May of 2002, JHCA noticed flight maps on the web site of a 
scenic tour operator that showed egregious violations of the National 
Parks Air Tour Management Act (NPATMA). Specifically, the maps 
advertised air tours over sections of Yellowstone and Grand Teton, 
including a flight directly over Old Faithful. The day that we made the 
FAA aware of these maps they were removed from the web site. The intent 
of the operator to fly over these parks is evident and will be an 
increasing threat to the parks until air tour management plans can be 
completed.
    When our organization first learned of the proposed scenic tours in 
Jackson Hole, we were relieved to learn of the Parks Air Tour 
Management Act and the protections that it seemed to provide for Grand 
Teton National Park. We quickly learned that the final rule for the Act 
had not been completed and that until that time, an air tour management 
plan for the park could not be completed. We have patiently waited for 
the final rule, submitting comments on June 8, 2001 supporting the 
FAA's proposal of an altitude of 5,000 feet AGL to define how low an 
aircraft may fly over a national park without triggering the Act.
Conclusion
    Without the final rule in place for the Parks Air Tour Management 
Act, local communities have grown increasingly frustrated with the 
inability to draft air tour management plans for national parks. The 
vast majority of the tourism economy in Jackson Hole is reliant on the 
tranquility and quiet of national parks. Without the implementation of 
the final rule for the Act there is very little that citizens can do to 
start an air tour management plan for a park. Nor can the FAA enforce 
the act until such a rule is in place. JHCA believes that after two and 
a half years, it is time to truly implement the Act by implementing a 
final rule.
                                 ______
                                 
                              Greater Yellowstone Coalition
                                       Bozeman, MT, October 2, 2002
Hon. John D. Rockefeller IV,
Chairman,
Senate Subcommittee on Aviation,
Commerce, Science, and Transportation Committee,
Washington, DC.

Re: Testimony for the October 3, 2002 Aviation Subcommittee oversight 
hearing on air tours and national parks

    Mr. Chairman and Members of the Subcommittee, I submit this letter 
on behalf of the Greater Yellowstone Coalition to be considered as 
testimony in the Senate Aviation Subcommittee's October 3, 2002 
oversight hearing on air tour management and national parks. The 
Greater Yellowstone Coalition (GYC) was founded in 1983 to protect 
Yellowstone National Park and the surrounding Greater Yellowstone 
Ecosystem. GYC has 12,500 members throughout the Greater Yellowstone 
region and around the country, as well as over 100 business members.
    We greatly appreciate passage of the National Parks Air Tour 
Management Act of 2000. The ability of national parks to control air 
tours in order to protect park resources, primarily natural quiet, and 
visitor experience is essential. The delay in promulgating final 
regulations to implement the Act, however, is placing Yellowstone and 
Grand Teton national parks at risk from commercial air tours. In the 
time between passage of the Act and today, Vortex Aviation, Inc. set up 
a commercial air tour operation in and around Yellowstone and Grand 
Teton. The absence of a final rule has hamstrung the National Park 
Service and Federal Aviation Administration from taking action to 
regulate the company. This failure to act has frustrated park visitors, 
employees and area residents, Flights over Yellowstone have been 
witnessed by park employees in the summer of 2001 and the company's 
recent publicization of park tours alarmed park visitors and local 
residents alike. As a result, there is broad support among area 
residents in Jackson, WY and Yellowstone's gateway towns for a ban of 
commercial overflights. We urge the Subcommittee to expedite the final 
rule so that the Park Service and FAA may proceed with action necessary 
to protect park resources.
    In addition, we encourage the Subcommittee to closely watch the 
rulemaking process to ensure that the high standards of National Park 
Service management are being upheld. NPS directives, policy and mission 
must form the strong framework which guides design and implementation 
of the final rule.
    NPS Management Policies of 2001 direct that ``The Service will 
restore degraded soundscapes to the natural condition wherever 
possible, and will protect natural soundscapes from degradation due to 
noise (undesirable human-caused sound) . . . . The Service will take 
action to prevent or minimize all noise that, through frequency, 
magnitude or duration, adversely affects the natural soundscape or 
other park resources or values, or that exceeds levels that have been 
identified as being acceptable to, or appropriate for, visitor use at 
the sites being monitored.'' (NFS Management Policies at 4.9) 
Director's Order #47 on Soundscape Preservation and Noise Management 
also provides important guidelines and delineation of NPS standards for 
resource protection.
    We appreciate the opportunity to submit testimony on this important 
matter. In Yellowstone and Grand Teton national parks there is a 
pressing need for a final rule implementing the National Parks Air Tour 
Management Act and Congressional oversight to ensure that park values 
and guiding laws are upheld. Please contact us if you would like 
further information on the situation in Yellowstone and Grand Teton 
national parks.

        Sincerely,
                                                Hope Sieck,
                                      Association Program Director.
                                 ______
                                 
 Prepared Statement of Riley McClelland, Wildlife Biologist, National 
                         Park Service (Retired)

    Mr. Chairman and Members of the Committee, I am Riley McClelland, 
retired after 25 years for the National Park Service as a wildlife 
biologist. I reside close to Glacier National Park. I am a long-time 
member of the National Parks Conservation Association (NPCA), and I 
support NPCA's mission to protect national parks, including their 
wildlife and their natural soundscapes
    In 1999 Glacier National Park adopted a new General Management Plan 
that included a decision to ask the Federal Aviation Administration to 
prohibit commercial sightseeing tours over the park. The helicopter 
overflight issue was one of two park issues that attracted the vast 
majority of public comment on the Plan. This decision was responsive to 
the 861 comments received, more than 90 percent of which opposed the 
intrusion of scenic overflights.
    The Glacier community, including neighbors, visitors and Glacier 
National Park itself, strongly supported the National Parks Air Tour 
Management Act of 2000, which would begin to give the National Park 
Service jurisdiction over commercial air tour operators flying over 
national parks. I am providing this testimony today primary to express 
my frustration and the community's frustration that final rules 
implementing this law have not been published more than two years 
later.
    Every year, as autumn approaches, I am reminded of the urgency of 
completing the rule-making process and allowing Glacier National Park 
to complete an air tour management plan that phases out all commercial 
air tour operations. October is the month that Glacier's skies become a 
continental migration route for thousands of eagles, hawks and falcons. 
At peak times, more than 100 eagles per hour pass given locations in 
these corridors. On many occasions I have witnessed commercial 
helicopters fly directly through the Park's migration corridors at 
altitudes coincident with the flight paths of the birds. Although FAA 
issues a voluntary request for pilots to stay 2,000 feet above ground 
level, I have personally documented dozens of instances in which the 
helicopters have hovered less than 500 feet above prime wildlife 
habitat, including the raptor migration corridors.
    Research had documented that helicopter overflights have adverse 
impacts on bighorn sheep, mountain goats, nesting birds and bears. 
Studies conducted in Glacier National Park in the 1980s found that over 
80 percent of grizzly bears observed in a remote section of the park 
elicited a ``strong'' reaction to helicopters.
    The impact of helicopter overflights on the experience of park 
visitors to Glacier National Park is equally negative. Every year I 
hear visitors in front country areas, such as the Going-to-the-Sun 
Road, vocalize their disgust at the noisy intrusion of overhead 
helicopters. Some of the most spectacular views of America's wildest 
mountains, lakes and valleys can be had from the Sun Road. There is 
little sympathy among park visitors to the argument that helicopters 
provide essential access for the elderly or disabled, when the Sun Road 
provides world-class access to all.
    Backcountry park users are especially impacted by commercial 
overflights. Since its establishment, Glacier has been a symbol of 
wildland values: the sounds and fragrances of Nature among magnificent 
peaks, lakes, creeks, and a unique flora and fauna. The NPS has 
characterized park wilderness (exemplified by Glacier) as ``solitude, 
and the music of stillness.'' Solitude and stillness now are hard to 
find in much of Glacier, even though NPS has recommended more than 95 
percent of the park for wilderness designation and seeks to manage it 
today as wilderness. The major and controllable factor responsible for 
this loss of wildness is low altitude helicopter flying.
    A 1957 NPS document entitled ``The National Park Wilderness'' 
clearly states the appropriate policy stance in a place like Glacier:

        Some strange proposals find their way to the National Park 
        Service, often suggesting activities completely inappropriate 
        to the best use of the parks . . . for instance, we can find 
        requests for gambling concessions, helicopter sightseeing 
        service . . . . The National Park Service immediately rejects 
        such proposals, and it requires no rare understanding of park 
        objectives to make the decisions.

    Unfortunately, the current regulatory environment precludes Glacier 
National Park from rejecting helicopter sightseeing services today, 
even though it would like to do so. That is what the 2000 legislation 
promised to fix, and that's what we're still waiting for today.
    We look forward to a federal rule that provides Glacier National 
Park with jurisdiction over all commercial air tours operating within 
5,000 feet above ground level over the park. This should apply to 
airspace 5,000 feet above the highest terrain and within 5,000 feet 
laterally of the route of flight. With respect to valleys, ground level 
should refer to the highest point on the ridges immediately adjacent to 
the valleys.
    Mr. Chairman, I urge the Subcommittee to determine the cause of the 
delayed rulemaking process and to act expeditiously to resolve it. 
Thank you for the opportunity to share my concerns.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           Margaret Gilligan
    Question 1. The National Parks Overflights Act of 1987, mandated 
that the FAA and the National Park Service work together to 
substantially restore natural quiet to the Grand Canyon. It has now 
been 15 years since Public Law 100-91 was enacted. Has the statutory 
mandate been achieved? If not, what are the reasons and when will this 
objective be accomplished?
    Answer. As currently measured, the standard has not been met. 
Accomplishing the goals established by the National Parks Overflights 
Act of 1987 has been more difficult, more complicated and involved more 
people than we had ever expected. Initially, when the Act was passed, 
the Federal Aviation Administration (FAA) developed Special Federal 
Aviation Regulation 50-2 that controlled the location and altitude of 
flights, moved flights above the rim of the canyon and placed those air 
tour flights on specific routes.
    Over time, FAA and the National Park Service (NPS) have learned 
much about measuring and reducing noise in the park. NPS has refined 
its measurement of substantial restoration of natural quiet. In 
response, we have proposed and in some cases implemented new routes and 
new altitude limits. We have limited the areas where tours may operate 
and the times they can be flown. In fact, before the recent decision by 
the Court of Appeals for the D.C. Circuit, FAA and NPS believed that 
the actions taken restored natural quiet to 43 percent of the park. 
That was short of our goal, but well on the way. Now, the Court has 
remanded some of our rules and directed that we reevaluate the work we 
have done. FAA and NPS are developing a response to the Court.
Grand Canyon Issues
    Question 2. In a case decided on August 16, 2002, (United States 
Air Tour Association, et al., v. Federal Aviation Administration), the 
Court of Appeals for the D.C. Circuit concluded that the FAA'S use of 
``average annual day,'' in lieu of ``any given day,'' in its definition 
of the substantial restoration of natural quiet at the Grand Canyon 
``appears inconsistent with both the Park Service's definition of the 
term and the premise on which that definition was based.'' The court 
also concluded that the FAA's decision to exclude non-tour aircraft 
from its noise model is ``arbitrary and capricious and requires 
reconsideration by the agency.'' What does the Park Service need to do 
to assist the FAA in resolving issues remanded back to the agency for 
reconsideration by the Court?
    Answer. NPS must provide guidance to FAA in choosing how to define 
substantial restoration of natural quiet. This definition will 
determine the extent to which the goal of substantial restoration of 
natural quiet has been achieved. Prior to the court decision, FAA and 
NPS jointly estimated that substantial restoration of natural quiet had 
been achieved in over 43 percent of the Grand Canyon National Park 
based on the decision to use the ``annual average day'' for 
measurement. Once NPS clarifies the ``day'' it intends for us to use, 
we will apply it.

    Question 2a. Is the noise from non-tour aircraft truly incidental, 
or will that part of the Court's ruling make it harder to restore 
natural quiet without severe restrictions on air tours?
    Answer. We believed that noise from non-tour aircraft was 
incidental as concluded by our technical experts after a review of 
available evidence that suggested that general aviation flights account 
for about 3 percent of all aircraft in the park and that aircraft 
flying over 30,000 feet have no impact. The Court's ruling requires the 
agencies to conduct additional analyses to quantify the contribution of 
other aircraft overflights.

    Question 3. The National Parks Air Tour Management Act of 2000 
requires the FAA to designate within 12 months of the enactment of the 
law, ``reasonably achievable requirements for fixed-wing and helicopter 
aircraft necessary for such aircraft to be considered as employing 
quiet aircraft technology for purposes of this section.'' The law also 
requires the FAA to ``establish. routes or corridors for commercial air 
tour operations . . . that employ quiet aircraft technology for . . . 
tours of the Grand Canyon . . .''. What progress has been made toward 
these two statutory requirements? What, if anything, remains to be done 
and when can we expect to see these mandates accomplished?
    Answer. In 1996, the FAA published the NPRM, Noise Limitations for 
Aircraft Operations in the Vicinity of Grand Canyon National Park, 
which was the predecessor to the current quiet technology concept. 
Following the publication of the NPRM, as well as a number of other 
related rulemakings, it became clear that there were long-term 
significant issues yet to be resolved before the quiet technology 
rulemaking could be finalized. The FAA and NPS jointly agreed that the 
best approach to substantially restore natural quiet to the Grand 
Canyon was to devote resources to final rules that addressed critical 
near-term needs. The agencies determined that considerable steps in 
reaching the substantial restoration of natural quiet in the Grand 
Canyon could be achieved by modifying the airspace over the park, 
creating larger flight-free zones, changing the route structure through 
GCNP, and establishing limits on the numbers of commercial air tours 
that could be flown in the park.
    The joint FAA/NPS quiet technology rulemaking team reconvened in 
2000. After successfully addressing a myriad of technically complex 
issues, the joint FAA/NPS quiet technology rulemaking team prepared a 
supplemental notice of proposed rulemaking (SNPRM) to define quiet 
technology designation for aircraft types in commercial air tours at 
Grand Canyon National Park. The SNPRM is undergoing review by the 
Office of Management and Budget. Since FAA did not meet the 12-month 
deadline set in the Act, the FAA prepared a report to Congress on Quiet 
Aircraft Technology for Grand Canyon to explain the delay. This report 
was submitted in October 2001. Also, in accordance with the Act, FAA 
and NPS established, in June 2001, the National Parks Overflight 
Advisory Group (NPOAG) to, in part, provide advice, information and 
recommendations on the establishment of incentive routes and corridors 
in Grand Canyon National Park. The FAA has briefed the NPOAG on its key 
role in the implementation of the quiet technology standard once that 
standard becomes a final rule. The Act also directed that, two years 
after enactment, FAA and NPS were to submit to Congress a report on 
``the effectiveness of this title in providing incentives for the 
development and use of quiet aircraft technology.'' The second report 
has not been prepared because it is also dependent upon the 
promulgation of a final rule on the designation of quiet aircraft 
technology.

    Question 4. Why has the FAA failed to analyze any of the data in 
the quarterly reports made by Grand Canyon air tour operators regarding 
their operations? Hasn't this failure jeopardized the agency's ability 
to review interim caps and other rules affecting operations?
    Answer. FAA has been collecting data since 1997. The first round of 
data collected was used to support the final rules published in April 
2000. For example, the data was the basis for the operations cap 
imposed on the air tour operators. Data collected since May 2000 is 
being compiled and analyzed by a full time data analyst dedicated to 
the Grand Canyon. This data will be used in our determination of any 
additional action needed to achieve substantial restoration of natural 
quiet.

    Question 5. What is your view of the Park Service's proposal to use 
an alternate dispute resolution process to resolve disputes between FAA 
and the Park Service regarding the restoration of natural quiet at the 
Grand Canyon?
    Answer. FAA is receptive to the proposal to use an alternative 
dispute resolution (ADR) to resolve issues regarding the restoration of 
natural quiet at the park. To clarify, however, we believe that ADR was 
proposed to resolve the many diverse interests in the park and not to 
resolve potential conflicts between the agencies. FAA is mindful, that 
how noise is measured in achieving the overall goal of substantial 
restoration of natural quiet affects a number of regulatory issues and 
competing interests such as the economic impact on small businesses, 
costs and benefits analysis, the impact on endangered species, and the 
impact on Native American traditional cultural properties and sacred, 
religious sites.

    Question 6. In your testimony, you state that the quiet technology 
rule is in ``final review''. What does that mean? Similarly, former 
Administrator Jane Garvey responded to a letter I wrote and told me 
that a rule was in ``final coordination'' to implement the National 
Parks Air Tour Management Act of 2000. Six months later there had been 
no action on that rule. Is that what we can expect with regard to quiet 
technology? How long will ``final review'' take?
    Answer. The rule was transmitted to OMB for their review on 
December 17, 2002. We expect the OMB review to be completed within 90 
days.
National Parks Air Tour Management Issues
    Question 7. This past January, Senator Akaka and I wrote to the FAA 
Administrator to express our concern that the final rule to implement 
the National Parks Air Tour Management Act of 2000 had not yet been 
issued. Another nine months have gone by since then and it is our 
understanding that the rule has still not been published. Many people 
consider that this law, which was enacted 2\1/2\ years ago, is largely 
self explanatory.

  <bullet>  On April 10, 2002, then FAA Administrator Jane Garvey 
        responded to this letter, saying that the National Parks 
        Overflights rule was in ``final coordination.'' Yet no further 
        action appears to have been taken until I called this hearing. 
        Why is that so? Do I need to have a hearing every month in 
        order to ensure that action is being taken?

  <bullet>  Are there issues between the FAA and the Park Service that 
        have complicated and therefore, delayed the promulgation of the 
        final rule?

  <bullet>  Why is the rulemaking process taking so long?

  <bullet>  When can we expect to see the final rule published?

  <bullet>  Once the final rule is issued, how soon will the agencies 
        be ready to start developing Air Tour Management Plans?

  <bullet>  How many air tour management plans do the agencies 
        anticipate being able to complete with in the first 24 months?

  <bullet>  What is the estimated cost to the agencies per Air Tour 
        Management Plan?

    Answer. I am pleased to tell you that the final rule was published 
on October 25, 2002, effective January 23, 2003.
    While the rule was in development FAA established an Air Tour 
Management Plan (ATMP) office that would be responsible for the 
development of guidance material for the public and FAA personnel. The 
ATMPs office is up and running and in cooperation with NPS will 
formally initiate the first ATMPs at two parks in Hawaii in February 
2003. Preliminary data collection activities are already underway at 
those parks. Additionally, to ensure smooth implementation of the rule, 
the ATMPs office published an Advisory Circular for the public and 
internal guidelines for the FAA personnel involved. The organization 
also developed video training material and established a web site at 
http://www.atmp.faa.gov to provide the public with answers and other 
information.
    Current plans call for ten ATMPs to be initiated in Fiscal Year 
2003 and 20 in Fiscal Year 2004. The FAA will make every effort to 
complete these ATMPs within 24 months.
    We estimate that the average cost to the agencies will be $300,000 
per Air Tour Management Plan.

    Question 8. I have received reports that new air tour operations 
have begun at certain National Parks since the National Parks Air Tour 
Management Act of 2000 was enacted. Further, I have heard that existing 
air tour operators have expanded operations. Since the law was designed 
to impose a moratorium on new or expanded operations pending the 
development of Air Tour Management Plans at affected parks, how will 
the FAA deal with such new or expanded operations once the final rule 
has been issued?
    Answer. With the publication of the Final Rule in October, FAA is 
beginning to receive applications for Operating Authority. The initial 
application deadline is January 23, 2003. Following this initial 
deadline, FAA will make an initial inventory of National Parks and 
Tribal Lands locations for which ATMPs will be required, air tour 
operations, and new entrant air tour operations as defined in the Act. 
The FAA and NPS are working on a plan to prioritize the development of 
ATMPs.
    Any operators who initiated service after April 5, 2000, will be 
considered new entrants for purposes of applying the rule, since they 
would not meet the statutory definition of an existing operator. Such 
operators must cease commercial air tour operations over the national 
park unit or tribal land unless they request and receive interim 
operating authority in accordance with conditions established in the 
Act.
    Likewise, unless otherwise authorized by FAA, existing operators 
will be limited to the greater of the number of operations conducted 
within the 12-months preceding April 5, 2000 or the annual average for 
the three year period preceding April 5, 2000.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                            Alan R. Stephens
    Question 1. Why has FAA taken so long to develop a rulemaking 
regarding the use of quiet aircraft technology at Grand Canyon?
    Answer. We have advocated quiet aircraft incentives since 1986. We 
put our money on the line and voluntarily developed propeller 
technology that make our Vistaliner aircraft the quietest large air 
tour aircraft flying over Grand Canyon and we did so in 1986. Everyone 
acknowledges that our aircraft are quiet and that quiet aircraft 
incentives must be a priority in restoring natural quiet to Grand 
Canyon. Thus it simply baffles us that nothing has been done about 
quiet aircraft incentives at Grand Canyon.
    When FAA finally issues rulemaking to define quiet aircraft and 
provide quiet aircraft incentives, Grand Canyon Airlines will give the 
matter the highest priority.

    Question 2. The Department of Interior is proposing Alternative 
Dispute Resolution as a possible solution to this history of slow 
progress. How do the air tour operators feel about this?
    Answer. The air tour industry is firmly on record as being in favor 
of using a process like the FAA Aviation Rulemaking Committee, or ARC, 
as a means of bringing air tour interests, the environmental lobbyists 
and native American interest together to resolve the issues that divide 
us at Grand Canyon. The process that is employed needs to have unbiased 
rules, have an impartial facilitator and importantly, bring only those 
interests to the table that can speak for the organizations they 
represent. For all too long we have seen that the environmental 
lobbyists have never been able, or willing, to make an attempt at 
negotiating a solution to the issues that divide them and us on air 
tour regulations at Grand Canyon. Thus the focus must be on bringing 
these environmental interests to the table. One more thing, this 
alternative dispute resolution process must lead to a final set of air 
tour regulations at Grand Canyon.

    Question 3. What would you recommend being done to ensure that the 
interests of the air tour operators are being addressed?
    Answer. A fair alternative dispute resolution process will ensure 
that we have a full opportunity to represent our concerns and 
importantly our recommendations for developing a permanent air tour 
management plan at Grand Canyon. However, that said, until the junk air 
tour noise modeling at Grand Canyon is replaced with science that is 
dependable and accurate, all we will we doing is akin to rearranging 
the deck chairs as the Titanic is sinking. Junk science produces junk 
results. Even the Park Service admits that its aircraft noise models at 
Grand Canyon remain unvalidated. That must be the first step in 
negotiating a good air tour management plan at Grand Canyon.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                              Steven Bosak
    Question 1. Air tour operators believe that no matter how quiet an 
aircraft may be, any air tour that is audible will not satisfy the Park 
Service or environmental critics of the industry. What is your reaction 
to this viewpoint?
    Answer. The National Parks Conservation Association supports the 
timely completion of the ``Quiet Technology'' regulations for air tour 
operators so that air tours can lower their noise impact on park 
visitors and resources, however, we do not think that less noisy 
aircraft will be the solution for entire parks or at every park.
    At the Grand Canyon, the Park Service interprets the National Parks 
Overflights Act to require that 50 percent of the park experience 
natural quiet for 75 percent of any given day. Regardless of 
adaptations that air tour operators may make to quiet their aircraft, 
the Overflights Act requirement for the Grand Canyon remains the same. 
Quieter aircraft may contribute to reducing the area on the ground in 
which- aircraft are audible, but noise modeling suggests that quieter 
aircraft alone, without significant reduction in air tours and 
elimination of certain tour routes, will not achieve the goal.
    With regard to the implementation of the National Parks Air Tour 
Management Act, the appropriateness of air tours at any park--or in 
different areas of a given park--is a site-specific determination. It 
has everything to do with the nature of the resource being protected. 
For instance, the Park Service does not allow family picnics on the 
Chickamauga battlefield. There is nothing inherently wrong with a 
family picnic; it is simply inappropriate for the purpose and meaning 
of that park unit. So, there will be areas of certain parks and even 
entire parks where NPCA opposes the presence of air tours, regardless 
of how much noise reduction an air tour can achieve. We will express 
our views on the appropriateness of air tour operations at other parks 
through the air tour management planning process that was called for by 
the National Parks Air Tour Management Act. This is exactly why the air 
tour management plan was the correct course of action to make these 
determinations.

    Question 2. In your prepared testimony, you state that the Park 
Service bears some blame for the lack of progress in the implementation 
of the National Parks Overflight Act of 1987 at the Grand Canyon. In 
what ways has the Park Service impeded progress?
    Answer. The National Parks Conservation Association believes the 
Park Service has not given adequate staff and management time to 
implementation of the Overflights Act of 1987. Measuring and mitigating 
aviation noise in backcountry locations has been a new and complex task 
for which NPS leadership has not allocated sufficient resources.
    Moreover, NPCA believes the Park Service should have been more 
forceful in its debate with FAA over which agency has authority to 
determine air tours impacts in Grand Canyon. (It took the recent D.C. 
Circuit decision to settle that debate).

    Question 3. What is your position on Alternative Dispute Resolution 
as a way to end some of the deadlock that consistently seems to come up 
in this process?
    Answer. We think that the recent D.C. Circuit decision on this 
issue made clear what the FAA and Park Service must do to implement the 
Overflights Act. They must substantially restore natural quiet, as that 
term has been interpreted by the Park Service. (They are already more 
than 15 years late in doing so.) NPCA would be open to a stakeholder 
discussion regarding ways to achieve that statutory mandate consistent 
with the Park Service's interpretation of ``substantial restoration of 
natural quiet'' in Grand Canyon National Park, as upheld by the D.C. 
Circuit Court. We would oppose any effort to reopen for ``negotiation'' 
issues regarding interpretation of the Overflights Act and its key 
terms that have already been resolved by the D.C. Circuit.
    I would note that we have not yet received any formal invitation 
from NPS regarding an ``ADR'' process for the Grand Canyon.

    Question 4. Do you believe that the National Parks Air Tour 
Management Act faces the same hurdles and obstacles as we have faced in 
the implementation of the law governing air tours at Grand Canyon? What 
can be done to ensure that this process is not bogged down?
    Answer. There appear to be many parallels between the Grand Canyon 
overflights issue and implementation challenges facing the National 
Parks Air Tour Management Act (the Act). To avoid delays in 
implementation of the National Parks Air Tour Management Act, we 
suggest the Committee take the following steps:

  <bullet>  Resolve the issue of which agency has the authority to 
        determine air tours' impacts on parks. The Park Service has the 
        expertise for managing national park resources, visitors, and 
        values. Congress has recognized the Park Service's 
        responsibility to protect national parks according to the 
        mandate of the Organic Act of 1916, yet the FAA is reluctant to 
        acknowledge formally the Park Service expertise in natural 
        quiet preservation.

  <bullet>  Ensure that both the FAA and NPS make air tour management 
        planning a priority and agree to follow the spirit of the Act. 
        Perhaps a ``truce'' document signed at multiple levels--high 
        levels--of both agencies would create a mutual understanding of 
        past problems and help avoid repeating past mistakes.

  <bullet>  Ensure that the Park Service commits sufficient resources 
        to implementation of the Act. Although FAA is the lead agency, 
        the resources it is dedicating to the park air tour management 
        process far outweighs the Park Services input. This lack of 
        balance in resources may leave park managers at a disadvantage 
        when advocating for the protection of natural quiet in park 
        areas.

                                  <all>

</pre></body></html>
